                    OFFICE OF INSPECTOR GENERAL
           CORPORATION FOR NATIONAL AND COMMUNITY SERVICE




                         Incurred Cost Audit of Grants Awarded to the
                             Washington Commission for National
                                   and Community Service




                                 OIG Audit Report No. 02-09
                                    December 18,200 1



                                   Financial Schedules and
                               Independent Auditors' Reports
                                        For the Period
                           January 24, 1994, to September 30, 2000



                                         Prepared by:


                                COTTON & COMPANY LLP
                              333 North Fairfax Street, Suite 401
                                 Alexandria, Virginia 223 14




This report was issued to Corporation management on August 14, 2002. Under the laws and
regulations governing audit follow-up, the Corporation must make final management decisions on
the report's findings and recommendations no later than February 14, 2003, and complete its
corrective actions by August 14, 2003. Consequently, the reported findings do not necessarily
represent the final resolution of the issues presented.
                                                                                            CORPORATION
                                 Office of Inspector General
                                                                                            FOR NATIONAL
                       Corporation for National and Community Sewice
                                     Audit Report 02-09                                      SERVICE
    Audit of Corporation for National and Community Service Grants Awarded to the
              Washington Commission for National and Community Service

Introduction

The Corporation for National and Community Service, pursuant to the authority of the National
and Community Service Act, awards grants and cooperative agreements to state commissions,
nonprofit entities, tribes and territories to assist in the creation of full and part time national and
community service programs. Currently, under the Act's requirements, the Corporation awards
approximately two thirds of its AmeriCorps Staternational funds to state commissions. The state
commissions in turn fund and are responsible for the oversight of subgrantees who execute the
programs. Through these subgrantees, AmeriCorps members perform service to meet
educational, human, environmental, and public safety needs.

OIG retained Cotton and Company to audit Corporation grants to the Washington Commission
for AmeriCorps, Learn and Serve, Professional Development and Training, Promise Fellows,
Disability, Educational Awards, America Reads, Governor's Initiative, Make a Difference Day
and Administrative costs from January 24, 1994 through September 30, 2000. During this
period, the Commission received approximately $43 million in funding authority from the
Corporation. The audit's objectives were to determine whether (1) the Commission's financial
reports presented fairly the financial results of the awards; (2) the internal controls adequately
safeguarded federal funds; (3) the Commission and its subgrantees had adequate procedures and
controls to ensure compliance with federal laws, applicable regulations, and award conditions;
and (4) costs were documented and allowable under the awards' terms and conditions.

The auditors identified questioned costs of $374,240, and unsupported costs of $1,068,575 of the
$43,123,075 costs that the Commission claimed during the audit period. Of the $1,068.575 of
unsupported costs, $980,765 represents unreconciled differences between the federal cash
transaction reports and the accounting system for three 1994 grants. When the reconciliation
process for these three grants is completed, the costs will be resolved. The report includes eleven
recommendations to the Commission to address weaknesses in the areas of compliance and
internal controls. The auditors concluded that the Schedules of Award Costs present fairly the
costs claimed by the Commission, except for the questioned and unsupported costs identified in
the report.

OIG has reviewed the report and the work papers supporting the auditors' conclusions. We agree
with the findings and recommendations presented.

OIG provided the Commission and the Corporation a draA of this report for their review and
comment. Their responses are included in their entirety as Appendices A and B, respectively.



                                                                                        Inspector General
                                                                                        1201 New York Avenue, NW
                                                                                        Washington, DC 20525
                     OFFICE OF INSPECTOR GENERAL
            CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
             INCURRED COST AUDIT OF GRANTS AWARDED TO THE
       WASHINGTON COMMISSION FOR NATIONAL AND COMMUNITY SERVICE

                                               Contents

Audit Scope

Summary of Results

Independent Auditors' Report

Consolidated Schedule of Award Costs

Exhibit A: Schedule of Award Costs for Award No. 94ASCWA047
   Schedule A-1 : Schedule of Award Costs - Community Youth Services
   Schedule A-2: Schedule of Award Costs - Department of Ecology
   Schedule A-3: Schedule of Award Costs - Educational Service District 10 1
   Schedule A-4: Schedule of Award Costs - Employment Security Department
   Schedule A-5: Schedule of Award Costs - YMCA of Snohomish

Exhibit B: Schedule of Award Costs for Award No. 94LCSWAO16

Exhibit C: Schedule of Award Costs for Award No. 94SCSWA047
   Schedule C-1 : Schedule of Matching Shortfall

Exhibit D: Schedule of Award Costs for Award No. 95PDSWA047

Exhibit E: Schedule of Award Costs for Award No. 95SPHG0020

Exhibit F: Schedule of Award Costs for Award No. 97DSCWA047

Exhibit G: Schedule of Award Costs for Award No. 97EDSWA026

Exhibit H: Schedule of Award Costs for Award No. 97LCSWAO16

Exhibit I: Schedule of Award Costs for Award No. 98ARCWA002

Exhibit J: Schedule of Award Costs for Award No. 98APSWA047

Exhibit K: Schedule of Questioned Costs by Subrecipient

Independent Auditors' Report on Compliance

Independent Auditors' Report on Internal Control

Exhibit L: Status of Findings from the Pre-audit Survey

Commission Response to Draft Audit Report                                      Appendix A

Corporation Response to Draft Audit Report                                     Appendix B
                                            AUDIT SCOPE

         At your request, we performed an incurred cost audit of the costs claimed by the Washington
Commission for National and Community Service (Commission) and its subrecipients for the period from
January 24, 1994, through September 30,2000. Our audit covered financial transaction, compliance, and
internal control testing of the following program awards funded by the Corporation for National and
Community Service (Corporation):


Program                                 Award No.              Award Period             Audit Period
AmeriCorps                            94ASCWA047            08/01/94 - 12131/00      0810 1/94 - 09/30/00
Learn & Serve                         94LCSWA0 16
Program Development and
 Assistance Training (PDAT)
Administrative
Governor's Innovative
State Disability Funds
Educational Award
Learn and Serve
America Reads
AmeriCorps Promise Fellows
Governor's Initiative
Make a Difference Day
AmeriCorps Promise Fellows

        The audit objectives were to determine whether:

                Financial reports prepared by the Commission presented fairly the financial results of the
                awards;

                Internal controls were adequate to safeguard Federal funds:

                The Commission and its subrecipients had adequate procedures and controls to ensure
                compliance with Federal laws, applicable regulations, and award conditions;

                Award costs reported to the Corporation were documented and allowable in accordance
                with the award terms and conditions; and

                The Commission had established adequate financial and program management oversight
                of its subrecipients.

                                      SUMMARY OF RESULTS

Costs Claimed

         The Commission claimed total costs of $43,123,075 on its Corporation grants from January 24,
1994, through September 30, 2000. Of this amount, we questioned $374,240 and classified $1,068,575 as
unsupported. Questioned costs are costs for which there is documentation that the recorded costs were
expended in violation of the law, regulations, or specific conditions of the award, or those costs that
require interpretation of allowability by the Corporation. Unsupported costs are those costs that require
additional documentation to support the cost was incurred and is allowable. Costs were questioned or
unsupported for the following reasons:

 Costs claimed in error
 Grant cost matching requirements not met
 Costs claimed exceeded costs incurred
 Subrecipient labor costs claimed with no time certification reports
 Additional support due on fixed award
 Emergency expenses claimed exceeded members' allowable living allowances
 Equipment costs claimed that were not approved in the budget
 Travel costs not offset by credits
 Total Questioned Costs

 Unreconciled differences between Federal Cash Transaction Reports
  (FC'TRs) and accounting records
 Supporting documents were missing
 Member files lacking eligibility records
 Total Unsupported Costs                                                                   $1 .068.575

      Details related to these costs appear in the Independent Auditors' Report. Cost exceptions are
summarized by award as follows:


    Grant No.-             Claimed            Questioned.        ..   Unsupported
                                                                           -                 Exhibit --
94ASCWA047                                      $823,592              $ 891,455                  A
94LCSWAO 16                                      161,676                                         B
94SCSWA047                                       147,239                  141,751                C
95PDSWA047                                        l3,45 1                   3,789                D
95SPHG0020                                                                 10,346                E
97DSC WAO47                                                                    736               F
97EDSWAO26                                                                (1 1,969)              G
97LCSWA0 16                                                                3 1,963              H
98ARCWA002                                                                     504              I
98APSWA047                                                                                      J
99APSWA047
99ASHWA047
99MDDWA027
Total

Compliance

        Our audit disclosed the following instances of noncompliance with Federal laws, applicable
regulations, and award conditions:

                 The Commission, the Pasco School District, and the Department of Ecology did not
                 allocate costs in accordance with the requirements of Office of Management and Budget
                 (OMB) Circular A-87 and the AmeriCorps Financial Management Provisions.
                The Commission and Puget Sound Educational Service District 121 did not have time
                certification systems that complied with the requirements of OMB Circular A-87.

                The Commission did not meet the matching requirements of Administrative Grant No.
                94SCSWA047.

                The Commission claimed unallowable and unsupported costs.

                The Commission's accounting system does not identi@ costs by budget line item.

        rn      The Commission did not submit its Financial Status Reports (FSRs) on a timely basis.

                Subrecipient member files did not contain all documentation required by the AmeriCorps
                Special Provisions. In two cases, the Commission's subrecipient monitoring site visits
                did not adequately ensure that all required documentation was maintained.

Internal Control

                The Commission did not reconcile costs reported on its FSRs to its FCTRs and
                accounting records.

                The Commission's financial monitoring of subrecipients should be strengthened. For
                example, the Commission did not reconcile amounts reported on subrecipient A-1 33
                reports to its payment records.

        rn      The Commission was unable to identify the source documentation, or provide
                explanations, for a number ofjournal entries posted to Federal grant costs.

                The Commission did not properly monitor travel costs to ensure that claimed costs were
                offset by applicable credits.

        These matters are discussed in more detail in the Independent Auditors' Reports on Compliance
and Internal Control.

Exit Conference

         We held an exit conference with Commission and Washington State representatives on
April 9, 2002.

         In addition, we provided a draft copy of this report to the Commission and the Corporation for
comment on June 11, 2002. Their responses, dated July 12, 2002, and July 15, 2002, respectively, are
included as appendixes A and B to this report. The Commission provided specific comments on the
compliance and internal control report findings, we have included these in our report. The Corporation
stated that it will respond to all findings and recommendations when the audit report is issued, and it has
reviewed the findings in detail.

Follow-Up on Prior Audit Findings

         The Corporation's Office of Inspector General performed a preaudit survey of the Commission in
1999 and issued CNS OIG Audit Report 00-10 dated November 18, 1999. Our audit followed up on the
status of findings and recommendations from that report (see Exhibit L).
                                           December 18,200 1


Inspector General
Corporation for National and Community Service

                               INDEPENDENT AUDITORS' REPORT

        We audited costs claimed by the Washington State Commission for National and Community
Service (Commission) for the awards listed below. These costs, as presented in the Consolidated
Schedule of Award costs and the grant-specific Schedules of Award Costs (Exhibits A through J), are the
responsibility of Commission management. Our responsibility is to express an opinion on the
consolidated Schedule of Award Costs and Exhibits A through J based on our audit.

                                        Award No.              Award Period --          Audit Period-
AmeriCorps                            94ASCWA047            O8/O 1/94 -- 12131100    O8/O 1/94 - 09/30/00
Learn & Serve                          94LCSWA0 16
PDAT                                   95PDSWA047
Administrative                         94SCSWA047
Governor's Innovative                  95SPHG0020
State Disability Funds                97DSCWA047
Educational Award                     97EDSWA026
Learn and Serve                        97LCSWA0 16
America Reads                         98ARCWA002
AmeriCorps Promise Fellows             98APSWA047
Governor's Initiative                 99ASHWA047
Make a Difference Day                 99MDDWA027
AmeriCorps Promise Fellows            99APSWA047



         We conducted our audit in accordance with audit standards generally accepted in the United
States of America and Government Auditing Standards issued by the Comptroller General of the United
States. These standards require that we plan and perform the audit to obtain reasonable assurance that the
financial schedules are free of material misstatement. An audit includes examining, on a test basis,
evidence supporting amounts and disclosures in the financial schedules. It also includes assessing
accounting principles used and significant estimates made by management, as well as evaluating the
overall financial schedule presentation. We believe that our audit provides a reasonable basis for our
opinion on costs claimed.
        The Consolidated Schedule of Award Costs and the grant-specific Schedules of Award Costs are
intended to present allowable costs incurred under the awards in accordance with Office of Management
and Budget (OMB) Circular A-87 and award terms and conditions. Therefore, these are not intended to
be complete presentations of the Commission's revenues and expenses.

        In our opinion, except for questioned and unsupported costs in the Schedules of Award Costs, the
financial schedules referred to above present fairly, in all material respects, costs claimed by the
Commission for the period January 24, 1994, to September 30,2000, in conformity with OMB Circular
A-87 and award terms and conditions.

         In accordance with Government Auditing Standards, we have also issued reports dated December
18,2001, on our consideration of the Commission's internal controls and on its compliance with laws and
regulations. These reports are an integral part of an audit performed in accordance with Government
Auditing Standards, and should be read in conjunction with this report in considering the audit results.

        This report is intended solely for the information and use of the Office of Inspector General,
Corporation management, the Commission, and the U.S. Congress, and is not intended to be and should
not be used by anyone other than these specified parties.

                                                COTTON & COMPANY LLP



                                                Alan Rosenthal, CPA
                                                Partner
               WASHINGTON COMMISSION ON NATIONAL AND COMMUNITY SERVICE
                        CONSOLIDATED SCHEDULE OF AWARD COSTS
                CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS



                                            Approved       Claimed        Questioned    Unsupported
 Award No.             Program               Budget         Costs           Costs          Costs      Reference
94ASCWA047    AmeriCorps                   $36,962,301    $35,912,687      $823,592     $   891,455   Exhibit A
94LCSWA0 16   Learn and Serve                  432,055        432,055       161,676                   Exhibit B
94SCSWA047    Administrative                 1,813,316      1,661,535       147,239                   Exhibit C
95PDSWA047    PDAT                             541,181        280,709        13,45 1                  Exhibit D
95SPHG0020    Governor's Innovative            295,637        242,570                                 Exhibit E
97DSCWA047    State Disability                 213,204          44,544      (13,617)                  Exhibit F
97EDSWA026    Educational Award                 73,836           9,832                                Exhibit G
97LCSWA0 16   Learn & Serve                    391,500         324,848                                Exhibit H
98ARCWA002    America Reads                  5,723,525      4,OO 1,667     (726,832)                  Exhibit I
98APSWA047    Americorps Promise Fellows        65,000          20,73 1     (3 1,269)                 Exhibit J
99APSWA047    Americorps Promise Fellows        65,000               0
99ASHWA047    Governor's Initiative            28 1,250        189,897
99MDDWA027    Make a Difference Day              2,000           2,000
Total                                      $46,859,805    $43.123.075      g74?240
                                                                                               EXHIBIT A


           WASHINGTON COMMISSION ON NATIONAL AND COMMUNITY SERVICE
                          SCHEDULE OF AWARD COSTS
               CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                  AMERICORPS
                            AWARD NO. 94ASCWA047
                       AUGUST 1,1994, TO SEPTEMBER 30,2000


                                              Claimed
                                               Costs       Questioned       Unsupported      Reference1
Subgrantee                                    (Note 1)       Costs             Costs           Note
Bridge the Gap                            $       2,500
Community Youth Services                      2,252,893      $    28,593                     Schedule A-1
Cowlitz-Wahkiakum Council                         9,815
Department of Ecology                         2,625,280                       $     8,909    Schedule A-2
Department of Health and Human
  Services                                    (13,551)
Educational Service District 101            2,093,395             62,08 1                    Schedule A-3
Educational Service District 112               93,700
Employment Security Department             20,5 17,607           704,575          47,592     Schedule A-4
Fremont Public Association                    873,534
Kent School District                           20,562
Kitsap Community Action                     2,203,653
Neutral Zone                                1,263,129
Northwest Services Council                    547,624
Pasco School District                       1,231,847
Seattle Police Department                     185,159
Southwest Youth and Family                     92,536
Spokane Neighborhood Action                        393
Tonasket School District                        11,108
United Way of Clallam County                     7,297
United Way of Clowlitz                           (9,815)
Whatcom Volunteer Center                            23 1
YMCA of Snohomish                             1,068,654           4,367                      Schedule A-5
Other Costs                                     (24.226)         23,976           (24,408)        2
Subtotal                                  $35,053,325        $823,592         $ 32,093
Unexplained Difference                        859.362                           859,362           3
Total                                    $35.912.687         $823.592         $891.455

Approved Budget                          $36.962,30 1


1.      The Commission did not track expenditures by budget line item. Accordingly, this exhibit and the
        accompanying schedules do not present claimed costs by budget line item. Claimed costs are costs
        reported by the Commission on its September 30, 2000, FCTR.
2.   The Commission claimed $(24,226) of non-subrecipient costs. We questioned $23,976 and classified
     $(24,408) unsupported as follows:

            The Commission charged $23,976 for travel, contracts, and goods and services to the
            AmeriCorps program in Fiscal Years (FY) 1998 through 2000. These costs are administrative
            costs as defined by the Special Grant Provisions for Administrative Funds to State
            Commissions, and should have been claimed under the Administrative grant award (Exhibit
            C). We questioned $23,976.

            The Commission could not identify the source documentation or provide descriptions for
            journal entries posted to the AmeriCorps program in FYs 1996 to 2000, totaling $(24,408).
            We classified these costs as unsupported.

3.   The Commission claimed $35,912,687 for Corporation reimbursement on its Federal Cash Transaction
     Reports (FCTRs) through September 30,2000. The Commission's accounting records, however, only
     support $35,053,325 as of that date. The Commission could not provide a reconciliation for the
     $859,362 difference between costs claimed and its accounting records. We classified these costs as
     unsupported.
                                                                                            SCHEDULE A-1


          WASHINGTON COMMISSION ON NATIONAL AND COMMUNITY SERVICE
                         SCHEDULE OF AWARD COSTS
              CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                           AWARD NO. 94ASCWA047
                      AUGUST 1,1994, TO SEPTEMBER 30,2000


     Community Youth Services                                                                 Notes
     Approved Budget (Federal funds)                                          $2.302.844

     Claimed Costs

     Questioned Costs
         Erroneously Recorded Payment                              $23,993                       1
         Unallowable Emergency Expense Reimbursements                4,600                       2
     Total Questioned Costs                                                    $   28.593



1.     The Commission recorded $23,993 for Community Youth Services (CYS) by journal voucher in 1995.
       CYS did not include this payment in its confirmation of amounts received under the AmeriCorps
       program. It appears that this charge should have been recorded as a payment to another subrecipient,
       Educational Service District 101 (ESD 101) (Schedule A-3), because this subrecipient's confirmation
       included a 1995 payment of $23,993 that was not on the Commission's books. We questioned costs
       claimed for CYS of $23,993.

2.     CYS paid emergency expenses (rent, utilities, and so forth) for members during program years 1995 to
       1997. Regulation 45 CFR, Section 2522.240(5), limits to 85 percent the Federal share for AmeriCorps
       participants' living allowances. CYS representatives explained that these were support costs, to help
       members reduce barriers to completing their service. In paying these emergency expenses, CYS
       exceeded the allowable living allowances. In addition, these payments were income to the members,
       and Federal income taxes should have been withheld from amounts paid. We questioned emergency
       expenses claimed of $4,600.
                                                                                            SCHEDULE A-2

         WASHINGTON COMMISSION ON NATIONAL AND COMMUNITY SERVICE
                        SCHEDULE OF AWARD COSTS
             CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                          AWARD NO. 94ASCWA047
                     AUGUST 1,1994, TO SEPTEMBER 30,2000



     Department of Ecology                                                                      Notes
     Approved Budget (Federal funds)                                          $3,682.420

     Claimed Costs

     Unsupported Costs:
         Missing Documentation, Accrual Adjustments             $ (5,186)                         1
         Missing Documentation, Member Eligibility               14,095                           2
     Total Unsupported Costs                                                 $     8.909



1.    The Commission recorded two accrual adjustments to Department of Ecology (DOE) costs, for which
      it could not provide support. These adjustments, booked in 1997 and 1999, do not correspond to any
      expenses incurred by, or payments made to, DOE. We classified the net credit recorded of $(5,186) as
      unsupported.

2.     DOE files did not contain sufficient documentation to support the eligibility for 4 of 59 member files
       tested. We were unable to ascertain from these files that members were U.S. citizens, at least 17 years
       of age, and had received a high school diploma (or its equivalent) as required by 45 CFR Section
       2522.200. We classified $14,095 of stipends paid to these members as unsupported, as follows (none
       of these members received an education award):


                                                                    Paid
                                Program Year                      Stipends




                                Total
                                                                                          SCHEDULE A-3


         WASHINGTON COMMISSION ON NATIONAL AND COMMUNITY SERVICE
                        SCHEDULE OF AWARD COSTS
             CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                          AWARD NO. 94ASCWA047
                     AUGUST 1,1994, TO SEPTEMBER 30,2000


           Educational Service District 101                                         Note
           Approved Budget (Federal funds)                      $2.090.585

           Claimed Costs

           Questioned Costs:
             Erroneously Recorded Payments                      $   62.081            1



1.   The Commission claimed erroneous payments totaling $62,O81 for ESD 10 1, as follows:

     0      Costs reported by the Commission included two $35,146 payments: one in FY 1999 and
            another in FY 2000. The second payment was recorded by journal voucher in FY 2000. ESD
            10 1 's receipt records show that it only received the first payment. We questioned $35,146 as
            a duplicate amount.

            Costs claimed included $42,960 paid to ESD 101 for Contract 280-97 in FY 1997. A
            Commission representative confirmed that this contract was part of a match assistance grant
            the state awarded to ESD 101 to cover shortfalls in workforce experience training, classroom
            allowances, worker compensation, and Federal Insurance Contributions Act work experience.
            The Corporation did not fund Contract 280-97. We questioned $42,960.

            Costs claimed did not include a March 1995 payment of $23,993 (Schedule A-1). Information
            provided by ESD 101 supports this amount as an allocable award cost. We questioned
            $(23,993).

            We noted a net unreconciled difference of $7,968 between payments claimed by the
            Commission and receipts confirmed by ESD 101. We questioned $7,968.
                                                                                         SCHEDULE A-4


        WASHINGTON COMMISSION ON NATIONAL AND COMMUNITY SERVICE
                       SCHEDULE OF AWARD COSTS
            CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                         AWARD NO. 94ASCWA047
                    AUGUST 1,1994, TO SEPTEMBER 30,2000



     Employment Security Department                                                        Notes
     Approved Budget (Federal funds)                                      $20,786,668

     Claimed Costs

     Questioned Costs:
        Misclassified Payments                            $701,105                           1
        Equipment Purchased Without Approval                 3,470                           2
     Total Questioned Costs                                               $   704.575

     Unsupported Costs:
         Misslng Documentation, Costs Claimed              $20,944                           3
        Misslng Documentation, Member Eligibil~ty           26.648                           4
     Total Unsupported Costs                                              $_-47.592



1.   We questioned misclassified payments of $70 1,105 as follows:

            Costs claimed included $712,422 paid in FY 1999 to the Employment Security Department
            (ESD) for its work on the America Reads Grant No. 98ARCWA047 (Exhibit I). We
            questioned this amount as unallocable to this award.

            Costs claimed included a $(12,467) credit to reclassify an ESD payment to state disability
            funds (Exhibit F). The original $12,467 payment, however, was not posted to this award. We
            questioned $(12,467).

            Costs claimed included $1,150 paid to ESD for the state disability funds grant (Exhibit F).
            We questioned this amount as unallocable to this award.

2.   One subrecipient, the State Board for Community and Technical College (SBCTC), purchased
     equipment that was not in its approved budget for 1996. SBCTC's approved budget included $6,000
     for a software package. SBCTC, however, purchased a workstation for the AmeriCorps project.
     SBCTC did not request and receive prior written approval from the Commission for this change. The
     agreement between SBCTC and the Commission states that the subrecipient must obtain prior written
     approval by the Commission for any equipment purchases over $500. We questioned $3,470.
3.   ESD could not provide source documents for eight items in our sample of direct costs claimed. Six of
     these were vouchers missing support, and ESD could not locate the archived boxes containing source
     documents for the other two. We classified other direct costs of $19,349 as unsupported, as follows.

                     Fiscal
                     -
                     Year                      Vendor                       Amount

                     1995     Shirt Works                                   $ 8,000
                     1996     Trollagon Recreational Lodge                       84
                              Mey Corps Research                                117
                              Shirt Works                                     7,456
                              Unknown                                           209
                     1997     Career Makers, Inc.                             1,874
                     1998     First USA Financial                               582
                     2000     Unknown                                         1,027

                     Total                                                  $19.349

     In addition, ESD could not provide an employee's timesheet to support May 2000 labor costs claimed
     of $1,595. We classified total costs of $20,944 ($19,349 + $1,595) as unsupported.

4.   ESD files did not contain sufficient documentation to support eligibility for 5 of 190 member files
     tested. We were unable to ascertain from these files that members were U S . citizens, at least 17 years
     of age, and had received a high school diploma (or its equivalent) as required by 45 CFR Section
     2522.200. We classified $17,198 of stipends and $9,450 of post service educational awards paid to
     these members in Program Years 1994 to 1995 as unsupported.
                                                                                        SCHEDULE A-5


       WASHINGTON COMMISSION ON NATIONAL AND COMMUNITY SERVICE
                      SCHEDULE OF AWARD COSTS
           CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                        AWARD NO. 94ASCWA047
                   AUGUST 1,1994, TO SEPTEMBER 30,2000



     YMCA of Snohomish                                                                   Notes
     Approved Budget (Federal funds)                                      $1.148.580

     Claimed Costs                                                        $1.O68.654

     Questioned Costs:
        Program Costs Claimed as Administrative            $(2,415)                         1
        Grant Application Costs Claimed                      6,782                          2
     Total Questioned Costs                                               $4.367


1.   The Commission charged $2,415, paid to this subrecipient in FY 1997, to its Administrative grant
     (Exhibit C). Supporting documentation for this charge indicates that it was incurred on the
     AmeriCorps grant. We questioned $(2,4 15).

2.   The Commission charged $6,782, paid to this subrecipient in FY 1996 and 1997, to the AmeriCorps
     grant. Supporting documentation for these charges indicate that costs were incurred on grant
     application and implementation. These costs are administrative, as defined by the Special Grant
     Provisions for Administrative Funds to State Commission and should have been charged to the
     Administrative grant (Exhibit C). We questioned $6,782.
                                                                                                          EXHIBIT B


                    WASHINGTON COMMISSION ON NATIONAL AND COMMUNITY SERVICE
                                   SCHEDULE OF AWARD COSTS
                        CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                       LEARN AND SERVE
                                     AWARD NO. 94LCSWA016


                                                                Claimed
                                                                  Costs             Questioned
     p
     .-p
       .-pp
          -.--
                                                                 (_Note=
                                                                  -                   Costs              Notes
            Puget Sound Educational Service District            $362,970             $ 44,877              2
            Costs Claimed in Excess of Costs Incurred              69,085              69,085              3
            Questioned Cost Sharing                                                    47,714              4

            Total                                               $432.055             $161.676

             Approved Budget                                    $432.055


1.               The Commission did not track expenditures by budget line item. Accordingly, this exhibit does not
                 present claimed costs by budget line item.

2.               Puget Sound did not require all employees working on this grant and other activities to prepare
                 personnel activity reports. Such certifications were only required if an employee's time distribution
                 changed. OMB Circular A-87, Attachment B, requires that personnel activity reports be prepared in
                 support of salaries and wages claimed under Federal awards for employees working on multiple
                 activities, unless a statistical sampling system or other substitute system has been approved by the
                 cognizant Federal agency. Puget Sound did not have an approved substitute system. Accordingly, we
                 questioned salaries claimed of $44,877 (incurred from FYs 1995 to 1999).

3.               The Commission claimed $432,055 for Corporation reimbursement on its FCTRs through December
                 3 1, 1999. The Commission's accounting records, however, only supported $362,970. We noted that
                 the Commission reconciled its records with amounts drawn down, and repaid the Corporation the
                 $69,085 difference in June 2001. We questioned $69,085, because this amount was overclaimed as of
                 September 30,2000.

4.               Puget Sound claimed cost sharing of $159,112; its accounting records, however, only supported
                 $136,785. Subrecipient representatives could not identify or support the $22,327 difference.
                 Following is our analysis of the $136,785 cost sharing. For the reasons stated, we determined that
                 none of the cost sharing is allowable.
                                                                 Reference

               Labor
               In-Kind
               Indirect Costs
               Other

               Total

a. As explained in Note 2, above, Puget Sound did not require employees to prepare personnel
   activity reports as required by OMB Circular A-87, Attachment B. For this reason, we classified
   $59,211 of labor costs claimed as unallowable.

b. Puget Sound did not obtain or maintain documentation to support the nature of costs or who
   contributed them. For this reason, we classified $54,639 of in-kind costs claimed as unallowable
   in accordance with OMB Circular A-110, paragraph 23.

c. Puget Sound claimed $4,1 13 administrative costs that exceeded the Corporation's limits. These
   costs are unallowable in accordance with OMB Circular A-110, paragraph 23 and, thus, cannot be
   claimed as cost sharing.

d. Puget Sound could not provide supporting documentation for other direct costs claimed of
   $18,822. Accordingly, we classified these costs as unsupported.

The Learn and Serve award requires that recipients cost share 15 percent of total program costs.
Because Puget Sound did not meet its cost sharing requirement, we questioned $47,714 claimed fo -
Corporation reimbursement as follows:

                       Total Costs Claimed
                       Less Costs Questioned:
                         Note 2
                         Note 3

                       Net Program Outlays

                       Maximum Federal Share (85%)            $2702379

                       Costs Questioned                       $ 47.714
                                                                                               EXHIBIT C


        WASHINGTON COMMISSION ON NATIONAL AND COMMUNITY SERVICE
                       SCHEDULE OF AWARD COSTS
            CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                            ADMINISTRATIVE
                         AWARD NO. 94SCSWA047
                   JANUARY 24,1994, TO SEPTEMBER 30,2000


                                       Claimed
                                        Costs             Questioned Unsupported
                                       (Note 1)             Costs       Costs           Notes
     Salaries and Benefits            $1,182,042                          $    4,582      2
     Contracts                            17,587           $     1,406                    3
     Goods and Services                  130,552               (20,265)                   4
     Travel                              177,646                  (474)        1,741      5
     Subgrantee Payments                   1,600                (5,182)                   6
     EquipmentISoftware                   21,919
     Unidentified Transactions            43,739                              48,978       7
     Subtotal                         $1,575,085           $ (24,515)     $ 55,301
     Unreconciled Difference              86,450                              86,450      8
     Cost Sharing Shortfall                                    17 1,754                   9
     Total                            $1,66L,531           $147.239       $141,751

     Approved Budget                  $1.813.316




1.   The Commission did not track expenditures by budget line item. Accordingly, this exhibit does not
     present claimed costs by budget line item.

2.   The Commission was unable to locate several files that contained documentation for FY 1994 labor
     transactions totaling $4,582. Accordingly, we classified this amount as unsupported.

3.   We questioned contract costs of $1,406 as follows:

             The Commission charged $3,010 of subgrantee payments to administrative contract costs in
             FY 1997. These costs were incurred on the AmeriCorps ($2,415) (Schedule A-5) and PDAT
             ($595) (Exhibit D) awards and should have been claimed under those awards. We questioned
             $3,010.

             The Commission charged a $1,604 contract payment to Wright CM3 Associates to the
             AmeriCorps program in FY 1999 (Exhibit A). These costs were administrative costs as
             defined by the Special Grant Provisions for Administrative Funds to State Commissions and
             should have been claimed under this award. We questioned $(1,604).
4.   We questioned goods and service costs of $(20,265) as follows:

             The Commission charged $195 paid to Capitol Grill Catering to the Administrative grant in
             FY 1997. The invoice for this charge indicated it was incurred on the PDAT grant (Exhibit
             D). We questioned this amount.

             The Commission charged $20,460 for goods and services (such as printing and Federal
             Express) to the AmeriCorps program (Exhibit A) in FYs 1998 through 2000. These costs
             were administrative costs as defined by the Special Grant Provisions for Administrative Funds
             to State Commissions and should have been claimed under the Administrative grant award.
             We questioned $(20,460).

5.   We questioned travel of $(474) and classified $1,741 as unsupported as follows:

             The Commission charged $1,911 for travel to the AmeriCorps program (Exhibit A) in FYs
             1998 through 2000. These costs were administrative costs as defined by the Special Grant
             Provisions for Administrative Funds to State Commissions and should have been claimed
             under the Administrative grant award. We questioned $(1,9ll).

             The Commission claimed travel costs of $1,437 for flights that were not taken and charged to
             the Administrative grant in error. We questioned these costs in accordance with OMB
             Circular A-87, Attachment A, Paragraph C. 1.

             The Commission claimed $1,741 for which there was no documented travel purpose. We
             were thus unable to determine the allowability and allocability of these costs. We classified
             $1,74 1 as unsupported.

6.   We questioned $45,182) as follows:

             The Commission charged $1,600 of subgrantee payments to the Administrative grant in FY
             1999. These were payments for program expenditures and should not have been claimed as
             administrative costs. Accordingly, we questioned this amount.

             The Commission charged $6,782 paid to YMCA of Snohomish for grant application and
             implementation to the AmeriCorps grant (Schedule A-5) in FYs 1996 and 1997. These costs
             were administrative costs. Accordingly, we questioned $(6,782).

7.   The Commission could not identify the source documentation or provide descriptions for $48,978 of
     journal entries posted to this grant in FYs 1994 through 2000. We classified these costs as
     unsupported.

8.   The Commission claimed $1,661,535 for Corporation reimbursement on its FCTR through September
     30, 2000. The Commission's accounting records, however, only supported $1,575,085 as of that date.
     The Commission could not provide a reconciliation for the $86,450 difference between costs claimed
     and its accounting records. We classified these costs as unsupported.

9.   The Commission claimed $702,440 of expenditures and $3 10,394 of in-kind contributions as its state
     match for this award. We tested matching costs claimed and determined $268,868 unallowable as
     follows:
       We questioned subgrantee payments of $23,075 for the reason described in Note 6 above.
       These were payments for program expenditures and should not have been claimed as
       administrative costs.

       We classified $87,507 as unsupported for the reason described in Note 7 above.

       We questioned travel costs of $460 and classified $127 as unsupported as follows:

           The Commission claimed $460 for flights that were not taken and charges recorded to this
           grant in error.

           The Commission claimed $127 for which there was no documented travel purpose.

       We noted that $14,409 claimed was for brochures and posters for the America Reads program
       (Exhibit I). We questioned these costs as unallocable to this award.

       The Commission could not support $134,704 of contract service costs and $8,586 of mailroom
       costs claimed as in-kind contributions.

We recalculated matching cost requirement and determined that the Commission's matching shortfall
was $17 1,754. This analysis is shown on Schedule C-1 .
                                                                                                 SCHEDULE C-1


                  WASHINGTON COMMISSION ON NATIONAL AND COMMUNITY SERVICE
                      SCHEDULE OF MATCHING SHORTFALL - ADMINISTRATIVE
                      CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                    AWARD NO. 94SCSWA047
                             JANUARY 24,1994, TO SEPTEMBER 30,2000



            Federal         Federal       State           State        Total          Match       Total
  Fiscal     Costs           Cost         Costs           Cost       Allowable      Percentage    Match       Match
-- Year    Claimed*        Exceptions    Claimed       Exce-ons        Costs         Rsuired
                                                                                        --.      Required    Shortfall
  1994     $    54,073      $  1,974     $    19,672    $    2,393   $    69,378       15%       $ 10,407    $   (6,872)
  1995         214,352       (15,267)         30,376        18,052       24 1,943      20%         48,389        36,065
  1996         223,714           237          29,638        17,040       236,075       20%         47,215        34,617
  1997         232,78 1        6,582          88,597        11,172       303,624       30%         9 1,087       13,662
  1998         270,039        18,663         244,383        99,258       396,501       50%        198,250        53,125
  1999         277,180        17,633         245,358        47,970       456,935       50%        228,467        3 1,079
  2000         250,4 1 1       8,190         284,324        64,706       461,839       50%        230,920        11,302
  200 1         52,535        (7,226)         70,486         8,277       121,970       5070        60,985        ( 1,224)
 Total     $1.575.085       $   30.786   $LO 12,834     $268:868     $2.288.265                  $915,720    $171.754


      *        Per Commission's accounting records.
                                                                                               EXHIBIT D


           WASHINGTON COMMISSION ON NATIONAL AND COMMUNITY SERVICE
                           SCHEDULE OF AWARD COSTS
               CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                 PROFESSIONAL DEVELOPMENT AND TRAINING (PDAT)
                             AWARD NO. 95PDSWA047
                      JANUARY 1,1995, TO SEPTEMBER 30,2000


                                              Claimed
                                               Costs        Questioned        Unsupported
                                              (Note 1)        Costs              Costs          Notes
Salaries and Benefits                         $106,273
Goods and Services                              20,273        $ (195)           $ 239              2
Travel                                          23,996                               25            3
Personal Service Contracts                         250
Subrecipients:
   Western Washington University                 48,808
   Kitsap Community Resources                     2,055
   Bonney Lakes 4H Ropes Course                     400
   Communities in Schools of Seattle             12,500
   Loma Center for Renewal                        4,783
   Community Youth Services                       1,490
   Employment Security Department
      (ESD)                                      54,3 17       11,872                              4
    Whatcom Volunteer Center                        265
Health Improvement Partnership                    1,774         1,774                              5
Subtotal
Unreconciled Difference
Total

Approved Budget                               $541.181



1.      The Commission did not track expenditures by budget line item. Accordingly, this exhibit does not
        present claimed costs by budget line item.

2.      We questioned $(195) and classified as $239 unsupported as follows:

               The Commission charged $195 incurred on this award to the Administrative grant (Exhibit C)
               in FY 1997. We questioned $(195).

               The Commission was unable to provide source documentation for $239 claimed for goods and
               services in FY 1999. We classified these costs as unsupported.
3.   We classified FY 1996 travel costs of $25 as unsupported because the Commission was unable to
     provide supporting documentation.

4.   We questioned $1 1,872 as follows:

            The Commission charged $595 incurred on the PDAT award to the Administrative grant
            (Exhibit C) in 1997. We questioned $(595).

            The Commission charged a $12,467 ESD payment to this award in FY 1990. This charge,
            however, was incurred on the Commission's state disability funds grant (Exhibit F). We
            questioned $12,467.

5.   The Commission charged $1,774 of subgrantee payments to this grant in FY 2000 These were
     payments for Promise Fellows program expenditures and should not have been ckimed as PDAT
     costs. We questioned this amount.

6.   The Commission claimed $280,709 for Corporation reimbursement on its FCTR through September
     30,2000. The Commission's accounting records, however, only supported $277,184 as of that date.
     The Commission could not provide a reconciliation for the $3,525 difference between costs claimed
     and its accounting records. We classified these costs as unsupported.
                                                                                            EXHIBIT E


        WASHINGTON COMMISSION ON NATIONAL AND COMMUNITY SERVICE
                       SCHEDULE OF AWARD COSTS
            CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                        GOVERNOR'S INNOVATIVE
                          AWARD NO. 95SPHG0020
                        MAY 1,1996, TO JULY 31,1998


                                                     Claimed
                                                      Costs           Unsupported
                                                     (Note 1)            Costs            Notes

     Department of Social and Health Services        $232,376            $      152         2
     Unreconciled Difference                           10,194                10,194         3

     Total

     Approved Budget



1.   The Commission did not track expenditures by budget line item. Accordingly, this exhibit does not
     present claimed costs by budget line item.

2.   The subrecipient could not provide an employee's timesheet to support May 2000 labor costs claimed
     of $152. We classified these costs as unsupported.

3.   The Commission claimed $242,570 for Corporation reimbursement on its FCTR through September
     30, 2000. The Commission's accounting records, however, only supported $232,376 as of that date.
     The Commission could not provide a reconciliation for the $10,194 difference between costs claimed
     and its accounting records. We classified these costs as unsupported.
                                                                                                EXHIBIT F


             WASHINGTON COMMISSION ON NATIONAL AND COMMUNITY SERVICE
                            SCHEDULE OF AWARD COSTS
                 CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                              STATE DISABILITY FUNDS
                               AWARD NO. 97DSCWA047
                          FEBRUARY 1,1997, TO JUNE 30,1998


                                              Claimed
                                               Costs         Questioned      Unsupported
                                              (Note 1)         Costs            Costs           Notes
     Employment Security Department           $ 43,072         $(13,617)                           2
     National Aids Fund                            736
     Subtotal                                 $ 43,808         $(13,617)
     Unreconciled Difference                       736                           $736              3

     Total

     Approved Budget                          $2 13.204



1.       The Commission did not track expenditures by budget line item. Accordingly, this exhibit does not
         present claimed costs by budget line item.

2.       We questioned costs of $(13,617) as follows:

                 The Commission charged a $12,467 ESD payment incurred on this award to the PDAT grant
                 (Exhibit D) in FY 1999. We questioned $(12,467).

                 The Commission charged a $1,150 ESD payment incurred on this award to the AmeriCorps
                 grant (Schedule A-4) in FY 1998. We questioned $(1,150).

3.       The Commission claimed $44,544 for Corporation reimbursement on its FCTR through September 30,
         2000. The Commission's accounting records, however, only supported $43,808 as of that date. The
         Commission could not provide a reconciliation for the $736 difference between costs claimed and its
         accounting records. We classified these costs as unsupported.
                                                                                             EXHIBIT G


       WASHINGTON COMMISSION ON NATIONAL AND COMMUNITY SERVICE
                       SCHEDULE OF AWARD COSTS
           CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                         EDUCATIONAL AWARD
                         AWARD NO. 97EDSWA026
                    JULY 1,1997, TO SEPTEMBER 30,2000


                                                 Claimed
                                                  Costs         Unsupported
                                                 (Note 1)          Costs            Note
           Educational Service District 101       $ 7,201
           Blue Mountain Action Council             13,849
           Northwest Youth Services                     75 1
           Subtotal                               $21,801
           Unreconciled Difference                 (1 1,969)      $(11,969)           2



           Approved Budget                        $ 73.836




1.   The Commission did not track expenditures by budget line item. Accordingly, this exhibit does not
     present claimed costs by budget line item.

2.   The Commission claimed $9,832 for Corporation reimbursement on its FCTR through September 30,
     2000. The Commission's accounting records, however, supported $2 1,8O 1 as of that date. The
     Commission could not provide a reconciliation for the $(I 1,969) difference between costs claimed and
     its accounting records. We classified these costs as unsupported.
                                                                                             EXHIBIT H


        WASHINGTON COMMISSION ON NATIONAL AND COMMUNITY SERVICE
                       SCHEDULE OF AWARD COSTS
            CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                           LEARN AND SERVE
                         AWARD NO. 97LCSWA016
                  SEPTEMBER 1,1998, TO SEPTEMBER 30,2000


                                                Claimed
                                                 Costs           Unsupported
                                                (Note 1)            Costs             Note
        Educational Service District 1 12       $292,885
        Unreconciled Difference                   3 1.963           $3 1,963            2

        Total                                   $324.848            $3 1.963

        Approved Budget



1.   The Commission did not track expenditures by budget line item. Accordingly, this exhibit does not
     present claimed costs by budget line item.

2.   The Commission claimed $324,848 for Corporation reimbursement on its FCTR through September
     30, 2000. The Commission's accounting records, however, only supported $292.885 as of that date.
     The Commission could not provide a reconciliation for the $3 1,963 difference between costs claimed
     and its accounting records. We classified these costs as unsupported.
                                                                                              EXHIBIT I


         WASHINGTON COMMISSION ON NATIONAL AND COMMUNITY SERVICE
                        SCHEDULE OF AWARD COSTS
             CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                              AMERICA READS
                          AWARD NO. 98ARCWA002
                       JUNE 1,1998, TO AUGUST 31,2000



                                              Costs         Questioned     Unsupported
                                             (Note 1)         Costs           Costs          Notes
     Employment Security Department
      (ESD)                                 $3,975,174       $(712,423)                        2
     Goods and Services                         25,989         (14,409)                        3
     Subtotal                               $4,00 1,163      $(726,832)
     Unreconciled Difference                        504                        $504            4

     Total                                  $4,001.667       N726.832)         $504

     Approved Budget                        $5.723.525



1.    The Commission did not track expenditures by budget line item. Accordingly, this exhibit does not
      present claimed costs by budget line item.

2.    In FY 1999 the Commission charged $712,423, paid to EDS, to the AmeriCorps grant (Schedule A-4).
      These costs were incurred on, and should have been charged to, the America Reads grant. We
      questioned $(7 12,423).

3.    The Commission recorded $14,409 incurred on brochures and posters for this program to its state
      matching for the Administrative grant (Exhibit C). These costs should have been claimed under this
      award, and we questioned $(14,409).

4.    The Commission claimed $4,00 1,667 for Corporation reimbursement on its FCTR through September
      30,2000. The Commission's accounting records, however, only supported $4,001,163 as of that date.
      The Commission could not provide a reconciliation for the $504 difference between costs claimed and
      its accounting records. We classified these costs as unsupported.
                                                                                         EXHIBIT J


   WASHINGTON COMMISSION ON NATIONAL AND C OMMUNITY SERVICE
                  SCHEDULE OF AWARD COSTS
       CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                 AMERICORPS PROMISE FELLOWS
                    AWARD NO. 98APSWA047
              NOVEMBER 1,1998, TO DECEMBER 31,1999


                                                    Claimed
                                                     Costs         Questioned
                                                    (Note 1)         Costs         Note
 Amount per FCTR                                    $   20,-'3 1
 Additional Support Due                              --             $(3 1,269)       2

 Total

 Approved Budget                                     $65,000



This grant is a fixed amount award. The Corporation provided a fixed level of support based on the
specified number of fellows. The Commission is not required to submit FSRs for this grant. Claimed
costs as shown here are the amounts claimed on the Commission's September 30,2000, FCTR.

The grant provided funding of $65,000, based on five Fellows ($13,000 per Fellow). We determined
that the Commission had four full-time Fellows for this grant. Thus, the Commission should have
been reimbursed $52,000 ($13,000 x 4). We questioned the $(3 1,269) difference between the amount
claimed on the Commission's September 30,2000, FCTR, and the amount due to the Commission in
accordance with the grant terms.
                                                                                                                 EXHIBIT K

                           WASHINGTON COMMISSION ON NATIONAL AND COMMUNITY SERVICE
                                 SCHEDULE OF QUESTIONED COSTS BY SUBRECIPIENT
                               CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                     AMERICORPS AWARD NUMBER 94ASCWA047

                                                    Employment                                                Non-
                                                     Security     Y M C A of        Dept of                 Subgrantee
                                          ESD 101      Dept       Snohomish         Ecology   SBCTC   CYS     Costs      Total
Questioned Costs
Program Costs Claimed as Administrative
Administrative Costs Claimed as Program
Misclassified Payments
Equipment Purchased Without Approval
Unallowable Expense Reimbursements
Erroneously Recorded Payments
Grant Application Costs Claimed
Total Questioned Costs

Unsupported Costs
Unreconciled FCTR Difference
Unidentified Journal Entries
Unsupported Accrual Adjustments
Unsupported Direct Costs
Eligibility Documentation Missing
Total Unsupported Costs
Total

Summary by Year
1994
1995
1996
1997
1998
1999
2000
UTD*
Total


                                                             * Unreconciled   Differences
                                           December 18,200 1


Inspector General
Corporation for National and Community Service


                   INDEPENDENT AUDITORS' REPORT ON COMPLIANCE

        We audited costs claimed by the Washington Commission on National and Community Service
(Commission) to the Corporation for National and Community Service (Corporation) for the following
awards and have issued our report thereon dated December 18,2001, which report was qualified for the
matters discussed therein.



                       Award No.             Award Period            Audit-Period    --

                     94ASCWA047           0810 1/94 - 12131/00    08/01/94 - 09/30/00
                     94LCSWA0 16
                     95PDSWA047
                     94SCSWA047
                      95SPHG0020
                     97DSCWA047
                     97EDSWA026
                     97LCSWAO16
                     98ARCWA002
                     98APSWA047
                     99ASHWA047
                    99MDDWA027
                     99APSWA047



         We conducted our audit in accordance with auditing standards generally accepted in the United
States of America and Government Auditing Standards issued by the Comptroller General of the United
States. Compliance with applicable laws and regulations related to the agreement is the responsibility of
the Commission's management. As part of obtaining reasonable assurance that costs are free of material
misstatements, we performed tests of compliance with certain provisions of laws and regulations related
to the grants, noncompliance with which could have a direct and material effect on the determination of
amounts claimed in the Schedule of Award Costs. Our objective was not, however, to provide an opinion
on overall compliance with such provisions. Accordingly, we do not express such an opinion.
      The results of our tests of compliance disclosed the following instances of material
noncompliance that are required to be reported herein under Government Auditing Standards.

1.      Cost Allocation

        As explained in the notes to Exhibits A through J, the Commission charged program costs to the
administrative and Program Development Assistance and Training (PDAT) grants, and also charged
administrative costs to the program grants. We also noted that two subrecipients recorded costs as direct
that should have been allocated between programs, as follows:

        0       Pasco School District (PSD) recorded expenses for FYs 1998 through 2000 for such
                items as its annual report, general office supplies, and photocopier maintenance as direct
                to the AmeriCorps grant. These costs benefit, and should have been allocated between,
                all active PSD grants. This problem apparently occurred, because PSD had not received
                funding from other sources in previous years. According to the PSD program director,
                PSD is now allocating such expenditures.

        0       The Department of Ecology (DOE) recorded a number of charges as direct to the
                AmeriCorps grant that were not incurred specifically on this grant. These costs benefit,
                and should have been allocated between, all DOE grants.

        The AmeriCorps Program Provisions, Financial Management Provisions, states:

                The Grantee must maintain financial management systems that include
                standard accounting practices, sufficient internal controls, a clear audit
                trail and written cost allocation procedures as necessary. Financial
                management systems must be capable of distinguishing expenditures
                attributable to this Grant from expenditures not attributable to this Grant.
                The system must be able to identify costs by programmatic year and by
                budget line item, and to differentiate between direct and indirect costs or
                administrative costs.

         Office of Management and Budget (OMB) Circular A-87, Attachment B, Section 3, Allocable
Costs, states that "Any cost allocable to a particular Federal award or cost objective under the principles
provided for in this Circular may not be charged to other Federal awards.. .."

Recommendation: We recommend that the Commission establish procedures to ensure that costs are
charged to the appropriate grants. We also recommend that the Commission implement adequate
financial monitoring procedures to ensure that grantee cost allocation systems comply with the
AmeriCorps financial management provisions.

Commission's Response: The Commission concurs with this finding. Some coding errors were
discovered during the audit, and the Commission corrected these errors before the audit was completed.
The subgrantees mentioned in the finding have changed their procedures and are now allocating charges.

2.      Employee Time Certifications

        The Commission does not require employees charging time to more than one activity to prepare
monthly personnel activity reports. Commission salaries are allocated among activities based on
semiannual time certifications. These certifications are submitted electronically and no employee
signature is required. In addition, Puget Sound Educational Service District 121 (a sub-recipient on Learn
and Serve, Grant No. 94LCSWAO 16) did not require its employees, working on multiple activities to
prepare monthly personnel activity reports. According to Puget Sound representatives, such certifications
were only required if an employee's actual time varied from the budget percentages used to allocate
salaries.

        OMB Circular A-87, Attachment B, Section 1lh, Compensation, states that:

                (4) Where employees work on multiple activities or cost objectives, a
                distribution of their salaries or wages will be supported by personnel
                activity reports or equivalent documentation which meets the standards
                in subsection (5) unless a statistical sampling system (see subsection (6))
                or other substitute system has been approved by the cognizant Federal
                agency.. ..(5) Support of salaries and wages. Personnel activity reports
                on equivalent documentation must meet the following standards: (a)
                They must reflect an after-the-fact distribution of the actual activity of
                each employee, (b) They must account for the total activity for which
                each employee is compensated, (c) They must be prepared at least
                monthly and must coincide with one or more pay periods, (d) They must
                be signed by the employee, and (e) Budget estimates or other distribution
                percentages determined before the services are performed do not qualify
                as support for charges to Federal awards.. .

Because the Commission and Puget Sound did not keep time records complying with Federal grant
requirements, they were unable to support labor costs claimed on Corporation grants.

Recommendation: We recommend that the Commission either require employees working on multiple
activities to prepare monthly personnel activity reports or obtain Corporation approval for a substitute
time distribution system. We also recommend that the Commission implement adequate financial
monitoring procedures to ensure that its subrecipients comply with the requirements of OMB Circular A-
87, Attachment B, Section 1 1.h.

Commission's Response: At this time, the Commission requires monthly timehudget allocation forms
to be completed by all Commission staff who are being compensated through the two Corporation
funding streams to meet OMB A-87, Section 11.h. requirements. All time forms are up to date and are
verified and signed by the executive director. This process was approved during the Commission's
Administrative Standards Review.

Auditors' Additional Comments: We recommend that the Corporation confirm that the monthly
timehudget allocation forms are used to distribute salary costs to the grant.

3.      Grant Cost Sharing

        The Commission did not meet the matching requirements of Administrative Grant No.
94SCSWA047. Regulation 45 CFR 2550.1 10(b), Limitation on Federal Share, establishes limits on the
Federal share of the Commission's operating costs. The Commission was required to match 15 percent of
total administrative expenses in the first award year and increasing percentages thereafter. As explained
in Exhibit C to the Independent Auditors' Report, however, we determined that the Commission claimed
unallowable and unsupported matching costs. Because of this, the Commission's matching was less than
the required amount. The Commission also did not meet the matching requirements of the Learn and
Serve grant (No. 94LCSWA016) as described in Exhibit B.

Recommendation: We recommend that, for future award years, the Commission ensure that only
allowable and adequately documented expenses are recorded as its matching share for Corporation
awards. We further recommend that the Corporation monitor total award and matching costs on a regular
basis to ensure that it is meeting its required matching share.

Commission's Response: The Commission does not concur with this finding. Only allowable and
adequately documented expenses are recorded as the Commission's matching share for Corporation
awards. The majority of the calculated matching shortfall relates to questioned costs for in-kind
contributions. During the audit period, a small percentage of Office of Financial Management (OFM)
staffs time (from 2% to 5%) for contracting, budgeting and mail service to the Commission was used to
calculate in-kind match. A review of the attached contract logs shows that the contracting staff was
spending from 13% to 27.4% of its time on Commission contracts. This information was provided to
Cotton & Company, LLP, but it was not taken into account in the draft audit report. OFM currently uses
a cost pool methodology to capture all the agency's administrative costs.

Auditors' Additional Comments: The contract logs supplied by the Commission do not meet the OMB
Circular A-87, Section 11.h. documentary support requirements for salary allocations. We thus made no
changes to our report.

4.      Questioned and Unsupported Costs

         The notes to Exhibits A through J describe questioned costs in the amount of $374,240, which are
summarized in the table included in the Summary of Results. These questioned costs consist of costs
claimed by the Commission for which there is documentation that the recorded costs were expended in
violation of laws, regulations, or specific conditions of awards, or costs that require interpretation of
allowability by the Corporation. In addition, notes to exhibits A through J describe unsupported costs in
the amount of $1,068,575, consisting of costs claimed by the Commission that require additional
documentation to support allowability. These unsupported costs are also summarized in the table
included in the Summary of Results.

Recommendation: We recommend that the Corporation follow up with the Commission to determine
whether the questioned and unsupported amounts should be disallowed and recovered.

Commission's Response: The Commission responded to questioned and unsupported costs as detailed
in the Summary of Results, page 2 of the draft audit report.

        .       Grant cost matching requirements not met - Please reference the response to finding 3
                above. Also, Cotton & Company, LLP questioned the time and effort record keeping of
                the Puget Sound Educational Service District. However, the Washington State Auditor's
                Office has audited this subrecipient many times, and never questioned their time and
                effort practices. The Commission does not concur with this part of the finding.

                Costs claimed exceeded costs incurred - The Commission has already returned the
                $69,085 electronically via the Payment Management system (see Attachment E to its
                response).

                Subrecipient labor costs claimed with no time certification reports - As documented in
                the response from the Puget Sound Educational Service District (see Attachment D to the
                Commission's response), its time and effort practices have never been questioned.

                Unreconciled differences between FCTRs and accounting records - The Commission
                responded to this issue in its comments on the Independent Auditors' Report on Internal
                Controls.
Auditors' Additional Comments: Puget Sound's response states that there were no time and effort
certifications on the Learn and Serve grant, because the percentage of time that staff worked during the
year did not vary significantly. We contend that this timekeeping practice does not meet the requirements
of OMB Circular A-87, Section 11.h.

5.      Accounting for Costs by Budget Line Item

        The Commission's accounting system does not identify costs by budget line item. It identifies
expenditures by cost type, but does not identify and summarize these by the grant budget categories. For
example, amounts paid to subrecipients are recorded as such, but these include costs from separate grant
budget categories, such as member support and other member costs. AmeriCorps General Provisions,
Financial Management Provisions, paragraph 23.a., state that:

                Financial management systems must be capable of distinguishing
                expenditures attributable to this Grant from expenditures not attributed to
                this Grant. This system must be able to identify costs by programmatic
                year and by budget line item, and to differentiate between direct and
                indirect costs or administrative costs.

Because the Commission's system does not identify and summarize costs by grant budget category, it is
unable to readily ascertain compliance with grant budget restrictions.

Recommendation: We recommend that the Commission revise its accounting system to identify and
summarize costs by grant budget line item.

Commission's Response: The Commission does not concur with this finding. The financial
management system identifies cost by budget line item. The fiscal office reviews the submitted
Periodical Expense Report (PER) to identify costs by budget line item. Upon verifying the identified
cost does not exceed the budgeted line item, the payment is processed. The PER is then used as one of
the source documents.

Auditors' Additional Comments: The AmeriCorps Financial Management Provisions require that the
Commission's financial management system identify costs by budget line item. Based on our
understanding of the Commission's system, the fiscal office verifies that subrecipients are tracking costs
by budget line item, but costs are not identified and summarized in this detail on the Commission's
accounting records, as required by the Financial Management Provisions.

6.      Financial Status Reporting

        The Commission did not submit its Financial Status Reports (FSRs) on a timely basis.
Regulation 45 CFR 2541.4lO(b)(4), Financial Reporting, states that reports submitted on a quarterly or
semiannual basis will be due 30 days after the date the reporting period ends. We tested 18 FSRs
submitted during the audit period and determined that 9 of these were submitted late, as follows:

                            Year           Tested                 Results
                            1995              2                 1 (I day late)
                            1996               1
                            1997              5             4 (2 to 37 days late)
                            1998              3
                            1999              0
                            2000              7             4 (2 to 15 days late)
      Failure to prepare and submit FSRs on a timely basis hinders Corporation oversight of the
Commission's financial performance and could result in funding delays.

Recommendation: We recommend that the Commission implement procedures to ensure the timely
submission of all FSRs.

Commission's Response: The Commission has procedures in place to ensure the timely submission of
all FSRs, as the results of the recent Corporation Standards Review will confirm. The nine FSRs
identified above were late because of extenuating circumstances that were explained prior to the required
submission date. Corporation staff approved extensions for these FSRs.

Auditors' Additional Comments: The Commission did not provide copies of the Corporation-approved
extensions, so we made no changes to our audit report.

7.      Program Requirements/Monitoring

        As part of its monitoring requirements, the Commission is responsible for ensuring that sub-
grantees are adequately trained in programmatic provisions and maintaining required documentation
accordingly. Our testing of subrecipient member files disclosed that some subrecipients were not
complying with all program requirements, as follows:

                Several of the subrecipient member files were missing documentation on mid-term andlor
                final evaluations. The AmeriCorps Special Provisions, Performance Reviews, require
                that grantees conduct at least mid-term and end-of-term evaluations of each member's
                performance, documenting that the member has:
                     Completed the required number of hours
                     Satisfactorily completed assignments, and
                     Met other performance criteria that were clearly communicated at the beginning of
                     the service term.

        We noted that the following subrecipient files were missing these evaluations:

                                                                        Number of Files
      Subrecipient                               Period           Tested   Missing Evaluations
      Community Youth Services                 1995 - 1998          39               3
      ~ducationalService District 101          1995 - 2000          47              39
      Employment Security Department           1994 - 2000         190              36
      Kitsap Community Resources               1995 - 2000          31              11
      Department of Ecology                    1994 - 2000          59              50

                Member files at five subrecipients did not always include high school diplomas or
                equivalent records. The AmeriCorps Special Provisions, Member Records and
                Confidentiality, require that if a member does not have a high school diploma or
                equivalent at enrollment time, the grantee must obtain a record of the elementary or high
                school drop-out date, and the member's written agreement to obtain a high school
                diploma or equivalent before using the education award. Failure to obtain this
                information could result in education awards to ineligible members. We found that
                member files were missing high school diplomas or equivalent information, as follows:
                                                                    Number of Files
 Subrecipient
 -                               -            Period          Tested   Missing Information
 Community Youth Services                   1995 - 1998         39              27
 ~ducationilService District 101            1995 - 2000        47               22
 Employment Security Department             1994 - 2000        190              10
 Department of Ecology                      1994 - 1996         59               3
 State Board for Community &
  Technical Colleges                        1996 - 1997         27                     1

               Two subrecipient files were missing member agreements, as follows:

                                                                    Number of Files
-.-   Subreceifient
                --                            Period          Tested   Missing Agreements
                                                                                    --
      Employment Security Department        1994 - 2 0 0 0     190               9
      Pasco School District                 1995 - 2000         38               2

              The Department of Ecology did not include required provisions regarding the "Drug Free
              Workplace Act", suspension and termination rules, release clauses, and grievance
              procedures in its member agreements. We tested 59 member files from 1994 to 2000 and
              noted that no agreements had these provisions. In addition, we noted that 37 agreements
              did not stipulate acceptable conduct and prohibited activities. The AmeriCorps Special
              Provisions, Member Contracts, state that the grantee must require members to sign
              contracts stipulating:

                  The minimum number of service hours necessary to be eligible for the education
                  award
                  Acceptable conduct
                  Prohibited activities
                  Requirements under the Drug Free Workplace Act
                  Suspension and termination rule
                  Specific circumstances under which a member may be terminated
                  Position description
                  Grievance procedures, and
                  Other requirements as established by the program.

              Two subrecipient files did not contain evidence that background checks were performed
              on members working with children, as follows:

                                                                      Number of Files
                                                                               -  ---
                                                                                   -



      Subrecipient                            Period         Tested    No Background Checks
      Employment Security Department        1994 - 1999       190                38
      Pasco School District                 1994 - 2000        38                38

              The AmeriCorps Special Provisions, Criminal Record Checks, require that programs with
              members who have substantial direct contact with children shall conduct criminal record
              checks on these members and that this documentation be maintained in member files.
              Failure to perform these background checks could result in children being exposed to
              members with histories of criminal violations.

              Member files at two subrecipients lacked sufficient information to document member
              enrollments and exits. The AmeriCorps Special Provisions, AmeriCorps Member-
              Related Forms, require that member enrollment forms be submitted to the Corporation no
                later than 30 days after a member is enrolled, and that member exit/end-of-term-of-
                service forms be submitted no later than 15 days after a member exits the program.
                Subrecipient failure to obtain and submit this information promptly results in inaccurate
                Corporation member enrollment records. We noted that enrollment and end-of-term-of-
                service forms were missing or lacked certification dates, as follows:

                                                                          Number of Files
      Subreciyient                                Period         Tested     Missing Information
      Employment Security ~ e ~ a r t m e n t   1994 - 2000       190                15
      Department of Ecology                     1994 - 2000        59                27

                Several of the subrecipients could not provide sufficient information to support member
                eligibility, either because the member file was missing or the eligibility documentation
                was not in the file. The AmeriCorps Special Provisions, Record-Keeping, state that the
                grantee must maintain verifiable records that document each member's eligibility to serve
                based upon citizenship, birth date, and level of educational attainment. Records kept in
                three of the subrecipient member files did not include adequate eligibility documentation,
                as follows:

                                                                          Number of Files
    -. Subrecipient                               Period         Tested     Missing Information
       Employment Security Department           1994 - 2 0 0 0    190                5
       Kitsap Community Resources               1996 - 1998        31                2
       Department of ~ c o l o g ~              1994 - 1998        59                4

        We also noted two instances where the Commission's subrecipient monitoring site visits did not
adequately ensure that all required documentation was maintained:

                The Commission's monitoring visit to Educational Service District 10 1 was performed in
                June 2000 and did not include testing of drop-out dates for members without high school
                diplomas and verification of member evaluations.

                The Commission's monitoring visit to DOE was performed in February 2001, and the
                member file checklist does not document verification of mid-term and final evaluations,
                or that service agreements included prohibited activities and the drug-free policy. In
                addition, there was no indication that the Commission followed up on compliance issues
                with corrective action letters to the subrecipient.

        Regulation 45 CFR Section 2541.400, Monitoring and Reporting Program Performance,
paragraph (a), states that:

                 Grantees are responsible for managing the day-to-day operations of
                grant and subgrant supported activities. Grantees must monitor grant and
                subgrant supported activities to assure compliance with applicable
                Federal requirements and that performance goals are being achieved.
                Grantee monitoring must cover each program, function, or activity.

Recommendation: We recommend that the Commission strengthen its program monitoring procedures
to ensure that these meet the requirements of 45 CFR 2541.400. Specifically, the Commission should
ensure that subrecipients are:
              Aware of, and complying with, grant requirements for conducting and retaining member
              evaluations.

              Maintaining the required educational information.

              Maintaining all member agreements, and that these agreements include all required
              provisions.

              Obtaining member background checks when warranted.

              Documenting member enrollments and exits promptly, and submitting this information to
              the Corporation on a timely basis.

              Maintaining sufficient information to support member eligibility.

Commission's Response: The Commission responded to each of the specific recommendations, as
follows:

              All Commission subrecipients are informed of grant requirements for conducting member
              evaluations through the Program Director's handbook and program staff training. Of the
              five programs monitored recently, the Commission found two subrecipients 100%
              compliant in conducting and retaining member evaluations, and the remaining
              subrecipients no less than 91% compliant.

              All Commission subrecipients are informed of the grant's educational information
              requirements through the Program Director's handbook and annual program staff
              training. This became a requirement in 1999. Of the five programs monitored recently,
              the Commission found 100% compliance with this requirement.

               All Commission subrecipients are required to ensure that member agreements include all
               the AmeriCorps provisions and are on file. Of the five programs monitored recently, the
               Commission found 100% compliance with this requirement.

               All Commission subrecipients are required to ensure that member background checks are
               conducted when warranted. Of the five programs monitored recently, the Commission
               found 100% compliance with this requirement.

               All Commission subrecipients are required to enroll and exit members promptly. This is
               done through the Web-Based Reporting System (WBRS) and so the information is
               available to the Corporation on a real time basis.

               All Commission subrecipients are required to ensure that sufficient information is on file
               to support member eligibility. Of the five programs monitored recently, the Commission
               found 99.9% compliance with this requirement.

       The above clearly show that the Commission has measures in place to ensure that subrecipients
       are aware of, and comply with grant requirements. The results of the recent Corporation
       Standards Review visit will support this statement.
        This report is intended solely for the information and use of the Office of Inspector General,
Corporation management, the Commission, and the U.S. Congress, and should not be used by anyone
other than these specified parties.

                                                   COTTON & COMPANY LLP


                                             By:
                                                &*-
                                                   Alan Rosenthal, CPA
                                                   Partner
              COTTONUCX~MPANY
                            LLP

                                            December 18,200 1


Inspector General
Corporation for National and Community Service


               INDEPENDENT AUDITORS' REPORT ON INTERNAL CONTROL

        We audited costs claimed by the Washington Commission on National and Community Service
(Commission) to the Corporation for National and Community Service (Corporation) for the following
awards and have issued our report thereon dated December 18,2001, which report was qualified for the
matters discussed therein.

                       Award No.              Award Period              Audit Period
                     94ASCWA047             0810 1/94 - 12131/00    0810 1/94 - 09/30/00
                      94LCSWAO16
                      95PDSWA047
                      94SCSWAO47
                      95SPHG0020
                     97DSCWA047
                     97EDSWA026
                      97LCSWA0 16
                     98ARCWA002
                     98APSWA047
                     99ASHWA047
                     99MDDWAO27
                     99APSWA047



         We conducted our audit in accordance with generally accepted auditing standards and
Governlnent Auditing Standards issued by the Comptroller General of the United States. These standards
require that we plan and perform the audit to obtain reasonable assurance that costs in the financial
schedules are free of material misstatement.

         Commission management is responsible for establishing and maintaining internal control. In
fulfilling this responsibility, estimates and judgments by management are required to assess expected
benefits and related costs of internal control policies and procedures. The objectives of internal control
are to provide management with reasonable, but not absolute, assurance that assets are safeguarded
against loss from unauthorized use or disposition, and that transactions are executed in accordance with
management's authorization and recorded properly to permit the preparation of financial schedules in
accordance with generally accepted accounting principles. Because of inherent limitations in internal
control, errors or irregularities may nevertheless occur and not be detected. Also, projection of any
evaluation of internal control to future periods is subject to the risk that procedures may become
inadequate because of changes in conditions or that the effectiveness of the design and operation of
policies and procedures may deteriorate.

        In planning and performing our audit, we considered the Commission's internal control in order
to determine our auditing procedures for the purpose of expressing our opinion on the financial statements
and not to provide assurance on the internal control.

         We noted four matters involving internal control and its operations that we consider reportable
conditions under standards established by the American Institute of Certified Public Accountants
(AICPA). Reportable conditions involve matters coming to our attention relating to significant
deficiencies in the design or operation of the internal control over financial reporting that, in our
judgment, could adversely affect the Commission's ability to record, process, summarize, and report
 financial data consistent with the assertions of management in the financial schedules. These matters are
discussed below.

1.      Reconciliation of FSRs and FCTRs

        The Commission did not reconcile its Financial Status Reports (FSRs) and Federal Cash
Transaction Reports (FCTRs) to its accounting records. It prepared its FSRs for program grants from
subrecipient FSRs and did not verify that costs claimed had been recorded as expenditures on its
accounting system. The Commission stated that its FCTRs were prepared from its accounting system.
We noted the following with respect to costs claimed on the Commission's FSRs and FCTRs:

                Amounts brought forward on the FSRs were not always consistent with amounts reported
                previously.

                Unexplained differences existed between costs reported on the FCTR and those per the
                Commission's accounting records for each grant. The Commission could not identify the
                source of these differences.

                Costs claimed included a number of payments that were not charged to the proper grant.

         Regulation 45 CFR 2541.200 Standardsfor Financial Management Systems, states that accurate
and complete disclosure of award financial results must be made in accordance with financial reporting
requirements. The Commission cannot assure that its Federal financial reports are complete and accurate,
unless it performs regular reconciliations of these reports to its accounting system. Reconciliations would
identify discrepancies such as those described above, and ensure that these were resolved in a timely
manner.

Recommendation: We recommend that the Commission perform detailed reconciliations of its FSRs and
FCTRs to its accounting system on a regular basis.

Commission's Response: The Commission concurs with this finding, and does currently perform
detailed reconciliations as recommended.

2.      Financial Monitoring of Subrecipients

        In performing audit procedures on the Commission's financial monitoring of its subrecipients, we
noted instances where its oversight procedures could be strengthened. For example, the Commission has
procedures in place to obtain copies of the annual Office of Management and Budget (OMB) Circular A-
133 audit reports for all of its subrecipients. The Commission does not, however, have procedures to
determine that the audit reports discuss or cover all Corporation awards, and to reconcile reported
amounts to its accounting records. We noted that the Pasco School District (Pasco), in its Fiscal Years
(FYs) 1995 through 1999 A- 133 reports, incorrectly reported the Employment Security Department
(ESD) as the grantor agency for its AmeriCorps grant expenditures. In FY 2000, it reversed reported
expenditures between ESD and the Commission. The Commission should have detected these
inaccuracies in its financial monitoring process. In addition, we noted the following conditions, which are
further evidence of the need for improvements in the Commission's financial monitoring of subrecipients:

                Puget Sound did not require employees working on Corporation awards to prepare after-
                the-fact time certifications, as required by OMB Circular A-87.

                The State Board for Community and Technical College (SBCTC) purchased equipment
                that was not in its approved budget, without prior Commission approval.

                Both ESD and Pasco could not provide documentation to support all direct cost charges
                tested.

                Pasco and the Department of Ecology did not have cost allocation systems that met the
                requirements of AmeriCorps Financial Management Provisions.

                Community Youth Services paid emergency expenses for members in program years
                1995 to 1997 that exceeded allowable living allowances.

         The Commission is responsible for ensuring that its subrecipients are aware of, and complying
with, all grant financial management requirements. Unless these requirements are properly
communicated and subrecipient performance is monitored, conditions such as those described above can
occur and not be detected on a timely basis.

Recommendation: We recommend that the Commission review its financial monitoring procedures and
make revisions necessary to ensure that all significant grant financial requirements are communicated to
subrecipients, and that subrecipient compliance with them is adequately monitored. We also recommend
that such procedures include Commission review of subrecipient OMB Circular A-1 33 reports to verify
that all Corporation awards have been reported, and to reconcile amounts reported to the Commission's
records.

Commission's Response: The Commission ensures that all grant financial requirements are
communicated to subrecipients through the subgrant agreement, the Commission's Fiscal Manual, and
through annual program staff training. To ensure that subrecipients comply with these requirements, the
Commission:

                Reviews and monitors all invoices;

                Reviews and reconciles A-1 33 reports to verify that all Corporation awards have been
                correctly reported; and

                Performs a limited fiscal review of at least three subrecipients' records (based on a risk
                assessment) each program year.
3.      Unidentified and Unsupported Cost Adjustments

        The Commission was unable to identify the source documentation, or provide explanations, for a
number of journal entries posted to Federal grant costs in FYs 1994 to 2000. In addition, several accrual
adjustments, booked in FYs 1997 and 1999, did not correspond to expenses incurred by or payments
made to subrecipients. Without documentation of the nature of and purpose for journal entries, it is not
possible to support the allocability and allowability of these costs to grant awards.

Recommendation: We recommend that the Commission implement procedures to ensure that it retains
source documentation for all journal entries and other adjustments posted to its accounting records.

Commission's Response: The Commission concurs with this finding, and has already implemented
procedures to ensure retention of source documentation for all journal entries and other adjustments
posted to accounting records.

4.      Travel Credits

         The Commission did not properly monitor travel costs to ensure that claimed costs were offset by
applicable credits. The Commission claimed administrative travel costs for flights that were not taken.
Failure to apply allocable credits to travel costs results in overclaims and unallowable grant charges.

Recommendation: We recommend that the Commission implement procedures to ensure that all travel
costs are properly offset by allocable credits in its accounting records.

Commission's Response: The Commission does not concur with this finding. While the Commission
could not locate documentation that credits were received (the majority of the costs in question relate to
the 1994 - 1995 timeframe), it doesn't mean that the credits were not received. The questioned costs
represent less than one percent of the Commission's travel expenditures during the audit period.
Additionally, Washington State has a new air travel vendor, who provides the Commission a monthly
statement, detailed by account, reflecting all of its activity for the month.

         A material weakness is a condition in which the design or operation of one or more of the specific
internal control components does not reduce to a relatively low level the risk that misstatements in
amounts that would be material in relation to the schedules of award costs being audited may occur and
not be detected within a timely period by employees in the normal course of performing their assigned
functions. Our consideration of the internal control over financial reporting would not necessarily
disclose all matters in internal control that might be reportable conditions and accordingly, would not
necessarily disclose all reportable conditions that are also considered to be material weaknesses. We
consider the first three matters listed above involving internal control and its operation to be material
weaknesses.

        This report is intended solely for the information and use of the Office of Inspector General,
Corporation management, the Commission, and the U.S. Congress, and should not be used by anyone
other than these specified parties.

                                                   COTTON & COMPANY LLP


                                              -J   -
                                                   Alan Rosenthal, CPA
                                                   Partner
                                                                                            EXHIBIT L


            STATUS OF FINDINGS FROM THE PRE-AUDIT SURVEY OF
     THE WASHINGTON COMMISSION ON NATIONAL AND COMMUNITY SERVICE
                        OIG AUDIT REPORT NO. 00-10


The Commission Was Missing Source Documents to Support Grant-Making Decisions

        The Commission did not maintain all documentation to support the application award, renewal,
and rejection process. The Commission could not provide documentation to support the application and
withdrawal of one subgrant applicant. In addition, one subgrant renewal package did not include the
renewal application or grant review score sheets for a Learn and Serve subgrant.

Current Status: The Commission sends award and rejection letters to applicants upon its final decision.
These letters along with applicable documents are maintained in the Commission's central files for each
program year. We consider this finding closed.

The Commission Lacked Evidence of Financial Status Reports Review, Including Matching
Recalculation

        Commission procedures indicated that subrecipient Financial Status Reports (FSRs) were
reviewed and compared with invoices submitted for payments, and matching requirements were
recalculated. No evidence existed, however, to document that this review was performed. In addition,
although the fiscal officer compared FSRs with invoices, Commission personnel did not compare the
FSRs to the subrecipients' accounting system.

Current Status: The Commission informed us that all FSR and period expense reports are verified
against the Web Based Reporting System (WBRS). The Commission, however, is still working on
documenting these reviews. See our Report on Internal Control for the related audit finding and
recommendation. We consider this finding open.

The Commission Did Not Maintain all Required FSRs

        The preaudit survey noted that 11 FSRs submitted by subrecipients, as well as FSRs submitted to
the Corporation, were missing. In addition, some of the Excel spreadsheets supporting the subrecipient
compiled FSRs were either missing or did not agree with the FSR submitted by the Commission to the
Corporation.

Current Status: On October 1 , 1999, the Commission and its subrecipients began using WBRS to submit
FSRs. The Commission can produce all FSRs fiom WBRS. We noted problems, however, with the
accuracy of the FSRs as described in our Report on Internal Control. We consider this finding open.

The Commission Was Unable to Determine that FSRs Were Received in a Timely Manner

        The Commission did not routinely date-stamp FSR reports from subrecipients upon receipt.
Thus, the Commission could not routinely verify that these documents were submitted in a timely manner
in compliance with the grant agreement.
Current Status: WBRS electronically records the date subrecipients submit FSRs to the Commission.
We consider this finding closed.

The Commission Needed to Improve Its Subrecipient Evaluation and Monitoring System

        The Commission did not include certain information in its documentation of site visits to
subrecipients. The missing information included the procedures followed to select members reviewed,
the names of members reviewed, and identification of members with exceptions. In addition, checklist
comments were general in nature.

Current Status: We noted that the Commission has revised its policies and procedures, as well as the
forms used in its site visits. These revisions were responsive to the preaudit survey findings. Our testing
identified, however, subrecipient monitoring visits that did not adequately ensure that all required
documentation was maintained. See our Report on Compliance. We consider this finding open.

The Commission Did Not Document Its Review of OMB Circular A-133 Reports or Other
Subrecipient Audit Reports

        Prior to 1999, the Commission did not document its review of subrecipient OMB Circular A-1 33
audits or other audit reports as part of the monitoring process.

Current Status: We consider this finding open. See our Report on Internal Controls.
                         APPENDIX A




COMMISSION RESPONSE TO
  DRAFT AUDIT REPORT
July 12, 2002


Mr. Teny Bathen
Acting Inspector General
Corporation for National and Community Service
1201 New York Avenue, NW
Washington, D.C. 20525

Dear Terry:

We have received the draft version of the Incurred Cost Audit of Grants of the
Washington Commission for National and Community Service, OIG Audit Report No.
02-09 received on June 17,2002. This letter and related attachments contains our
response to the audit.

This audit reviewed over seven years of Corporation for National and Community
Service funding received by the Commission. It has identified slightly less than one
percent of the total claimed costs as questioned, and about two percent as unsupported.
While these percentages are quite low, the Commission does not concur with the vast
majority of these findings. In addition, while we appreciate the recommendations made,
we are disappointed that improvements and recommendations already implemented since
1998 were ignored giving one the impression that this report does not fairly represent the
overall financial and programmatic operations of the Commission.

Finally, we appreciate your personal involvement in this audit that brought it to a
conclusion. This was a 19-month long process that has consumed a significant amount of
staff time and resources.

If I can provide you with additional information, I will be happy to do so. Please contact
me if necessary at (360) 902-0663.

Sincerelv.


&
, illiam C. Bas1
Executive Director

Attachments (5)
                                                                             Attachment A

Response to Independent Auditor's Report on Compliance:

1.      Cost Allocation
Recommendation: We recommend that the Commission establish procedures to ensure
that costs are charged to the appropriate grants. We also recommend that the
Commission implement adequate financial monitoring procedures to ensure that grantee
cost allocation systems comply with the ArneriCorps financial management provisions.
Response: The Commission concurs with this finding. Some coding errors were
discovered during the audit, and the Commission corrected these errors before the audit
was completed.. The subgrantees mentioned in the finding have changed their
procedures and are now allocating the charges.

        The Commission has implemented a risk-based financial monitoring procedure
effective program year 2000. This involves a limited fiscal review of at least three
subgrantees annually, conducted by an independent auditor who assesses subrecipients
for a variety of financial elements including the efficiency of their cost allocation systems
and its compliance with the ArneriCorps provisions. The results of the recent
Administrative Standards Review visit will attest to this system change. (The
Administrative Standards Review is a formal evaluation conducted by a team of
independent and Corporation staff, appointed by the Corporation for National and
Community Service (CNCS). The team conducts a detailed review of one hundred and
twenty-six elements related to the financial and programmatic administrative systems of
state Commissions. The Washington Commission had its Administrative Standards
Review June 17-21, 2002.)


2.     Employee Time Certifications
Recommendation: We recommend that the Commission either require employees
working on multiple activities to prepare monthly time certifications or obtain
Corporation approval for a substitute time distribution system. We also recommend that
the Commission implement adequate financial monitoring procedures to ensure that its
subrecipients comply with the requirements of OMB Circular A-87, Attachment B,
Section 1 1h.
Response: At this time, the Commission requires monthly timebudget allocation forms
to be completed by all Commission staff who are being compensated through the two
Corporation for National and Community Service funding streams to meet OMB A-87,
Section 1 1. h. requirements. The TimeIBudget record includes hours spent on training or
technical assistance activity (Program Development and Training-PDAT) or
administrative activities (Administrative). All time forms are up to date and are verified
and signed by the executive director. This process was approved during the
Commission's Administrative Standards Review for Standard 5.1.3d - time and effort
distribution ofpersonnel to Commission direct grants. Commission staff not funded
under more than one federal CNCS source of funding have signed certification forms to
                                                                            Attachment A

this fact and these are on file at the Office of Financial Management (OFM)/Governor's
Office Accounting.

The Commission implements a risk-based financial monitoring system. The limited
fiscal review conducted by an independent contractor that is part of this practice includes
a review of staff time to ensure compliance with the requirements of OMB Circular A-87,
Attachment B, Section 11.h. A specific response to the subrecipient finding here is fully
discussed below under 4. Questioned and Unsupported Costs.


3.     Grant Cost Sharing
Recommendation: We recommend that, for future award years, the Commission ensure
that only allowable and adequately documented expenses are recorded as its matching
share for Corporation awards. We firther recommend that the Corporation monitor total
award and matching costs on a regular basis to ensure that it is meeting its required
matching share.

Response: The Commission does not concur with this finding. Only allowable and
adequately documented expenses are recorded as the Commission's matching share for
Corporation awards. The results of the recent Standards Review visit supports this
statement.

Exhibit C-1 of the audit report shows a match shortfall of $171,754. However, the
majority of the calculated shortfall relates to questioned costs for in-kind contributions.
During the audit period, a small percentage of time (from 2% to 5%) of staff from the
Office of Financial Management who was providing contracting, budgeting and mail
service to the Commission was used to calculate in-kind match. A review of the contract
logs showed that the contracting staff were spending anywhere from 13% to 27.4% of
their time on Commission contracts. This translates into $157,058.95 of in-kind
contributions during the audit period. See Attachment C. This additional data was sent
to Cotton & Co., LLP but it was not taken into account when the audit report was drafted.

The Office of Financial Management now uses a cost pool methodology to capture all
administrative costs for the agency. This process provides a well documented, and an
easy to understand calculation of the amount of in-kind contribution being provided to
the Commission.

4.     Questioned and Unsupported Costs
Recommendation: We recommend that the Corporation follow up with the Commission
to determine whether the questioned and unsupported amounts should be disallowed and
recovered.
                                                                          Attachment A

Response: The Commission looks forward to working with Corporation staff on this
finding. The Summary of Results on Page 2 of the audit report lists several questioned or
unsupported costs. Following is the Commission's response to the various amounts:
       Costs claimed in error - The Commission would appreciate further clarification
       from the OIG's office so that we can respond adequately to this finding.
       Grant cost matching requirements not met - Please reference the response to
       finding 3 above related to $17 1,754 of the questioned costs. The remaining
       $47,714 relates to the 94LCSWA016 grant. Cotton & Co. questioned the time
       and effort record keeping of the Puget Sound Educational Service District.
       However, as documented in the response from the Puget Sound ESD, they had
       undergone multiple audits by the Washington State Auditor's Office and had
       never been questioned on their time and effort practices (see Attachment D). By
       questioning these costs, Cotton & Co. has calculated that the Puget Sound ESD
       did not meet the matching requirement for this grant. The Commission does not
       concur with this part of the finding.
       Costs claimed exceeded costs incurred - The Commission has already returned
       the $69,085 electronically via the Payment Management System. See Attachment
       E.
       Subrecipient labor costs claimed with no time certification reports - Cotton & Co.
       questioned the time and effort record keeping of the Puget Sound Educational
       Service District. However, as documented in the response from the Puget Sound
       ESD, they had undergone multiple audits by the Washington State Auditor's
       Office and had never been questioned on their time and effort practices. See
       Attachment D.
       Unreconciled differences between Federal Cash Transaction Reports (FCTRs) and
       accounting records - Please reference Attachment B, finding 1 in the Response to
       Independent Auditor's Report on Internal Control for our response related to this
       issue.

5.     Accounting for Costs by Budget Line Item
Recommendation: We recommend that the Commission revise its accounting system to
identify and summarize costs by grant budget line item.


Response: The Commission does not concur with this finding. The financial
management system identifies cost by budget line item. In keeping with efficiency, the
fiscal office reviews the submitted Periodical Expense Report (PER) to identify costs by
budget line item. Upon verifjring the identified cost does not exceed the budgeted line
item, the payment is processed. The PER is then used as one of the source documents.
This procedure eliminates duplicating the efforts of the sub-grantees and assists in
reducing costs for the programs. The results of the recent CNCS Standards Review visit
will support this statement..

6.     Financial Status Reporting
                                                                          Attachment A

Recommendation: We recommend that the Commission implement procedures to ensure
timely submission of all FSRs.


Response: The Commission has procedures in place to ensure the timely submission of
all FSRs. The results of the recent Standards Review visit by the Corporation assigned
Standards Review team will confirm this (June 2002). The auditors found nine FSRs that
were submitted late to the CNCS over the period 1994 to 2000. These were all late
because of extenuating circumstances that were explained prior to the required
submission date and Corporation staff approved extensions for these FSRs.


7.     Program RequirementsIMonitoring
Recommendation: We recommend that the Commission strengthen its program
monitoring procedures to ensure that these meet the requirements of 45 CFR 2541.400.
Specifically, the Commission should ensure those subrecipients are:

                   Aware of, and complying with, grant requirements for conducting
                   and retaining member evaluations.
Response: All WCNCS subrecipients are informed of grant requirements for conducting
member evaluations through the issuance of the Program Director's handbook and
trainings for program staff. Of the five programs monitored recently, Commission staff
has found two subrecipients 100% compliant in conducting and retaining member
evaluations and the remaining subrecipients no less than 91 % compliant. The difference
was accounted for in the timing of the monitoring visit and misfiling of one evaluation.
This clearly shows that the Commission has measures in place to ensure that
subrecipients are aware of and comply with this grant requirement. The results of the
recent CNCS Standards Review visit will support this statement.

                   Maintaining the required educational information.
Response: All WCNCS subrecipients are informed of the grant's educational information
requirements through the issuance of the Program Director's handbook and annual
trainings for program staff. This became a requirement in program year 1999. Of the
five programs monitored recently Commission staff have found 100% compliance with
this requirement. This clearly shows that the Commission has measures in place to
ensure that subrecipients are aware of and comply with this grant requirement. The
results of the recent CNCS Standards Review visit will support this statement.

                   Maintaining all member agreements, and that these agreements
                   include all required provisions.
Response: All WCNCS subrecipients are required to ensure that member agreements
include all the AmeriCorps provisions and are on file. Of the five programs monitored
recently Commission staff have found 100% compliance with this requirement. This
clearly shows that the Commission has measures in place to ensure that subrecipients are
                                                                          Attachment A

aware of and comply with this grant requirement. The results of the recent CNCS
Standards Review visit will support this statement..

                   Obtaining member background checks when warranted.
Response: All WCNCS subrecipients are required to ensure that member background
checks are conducted when warranted. Often these background checks are conducted by
a school district, at their cost, and maintained by school district staff in confidential
member personnel files. Where this is the practice, we now require programs to maintain
a generic list of these approvals on file. Of the five programs monitored recently,
Commission staff has found 100% compliance with this requirement. This clearly shows
that the Commission has measures in place to ensure that subrecipients are aware of and
comply with this grant and state requirement. The results of the recent CNCS Standards
Review visit will support this statement..

                   Documenting member enrollments and exits promptly, and
                   submitting this information to the Corporation on a timely basis.
Response: All WCNCS subrecipients are required to enroll and exit members promptly.
This is done through the Web-Based Reporting System (WBRS) and so the information
is available to the Corporation on a real time basis. A review of Approval Cycle Time
data in WBRS for this current program year showed an average approval time of thirty-
eight days for all WCNCS programs. Four of our programs had a WBRS issue enrolling
members that caused a significant delay (5 1 days) and took an extended period to
address. WBRS helpdesk responses will attest to this problem. Every effort is being
made to work closely with WBRS technical support to ensure the timely address of issues
so that this will not impact the enrollment process in the future.


                   Maintaining sufficient information to support member eligibility.
Response: All WCNCS subrecipients are required to ensure that sufficient information is
on file to support member eligibility. Of the five programs monitored recently,
Commission staff has found 99.9% compliance with this requirement. The one file that
was missing a member eligibility document had in its place a copy of the request to the
relevant authority. This clearly shows that the Commission has measures in place to
ensure that subrecipients are aware of and comply with this grant requirement. The
results of the recent CNCS Standards Review visit will attest to this issue.
                                                                             Attachment B


Response to Independent Auditor's Report on Internal Control:

1.      Reconciliation of FSRs and FCTRs
Recommendation: We recommend that the Commission perform detailed reconciliations
of its FSRs and FCTRs to its accounting system on a regular basis.
Response: The Commission concurs with this finding and does currently perform
detailed reconciliations as recommended. The Commission is in the process of
completing the three-way reconciliation between the agency's accounting system, the
Financial Status Reports, and the Federal Cash Transaction Reports. The expedited
resolution of questioned costs contained in this audit report is crucial to the completion of
the reconciliation. Also, there are several grants covered by the audit that are scheduled
to be closed-out by August 3 1,2002.

2.      Financial Monitoring of Subrecipients
Recommendation: We recommend that the Commission review its financial monitoring
procedures and make revisions necessary to ensure that all significant grant financial
requirements are communicated to subrecipients, and that subrecipient compliance is
adequately monitored. We also recommend that such procedures include Commission
review of subrecipient OMB Circular A-133 reports to verify that all Corporation awards
have been reported, and to reconcile amounts reported to the Commission's records.


Response: The Commission ensures that all significant (and less significant) grant
financial requirements are communicated to subrecipients in a variety of ways:
        rn            The contractual agreement between the Commission and each
        subgrantee;
                     The publication of the Commission's Fiscal Manual through the
        Policies folder of the Web-Based Reporting System; and
                      Through regular annual trainings for program staff.
     To ensure subrecipient compliance with these requirements, the Commission:
             Reviews and monitors all invoices on submission for a variety of things
             including match;
             Reviews and reconciles A-1 33 reports to verify that all Corporation awards
             have been correctly reported; and
             Selects a minimum of three subrecipients for a limited fiscal review, based on
             a risk assessment, of its records each program year.

The report of the recent CNCS Standards Review Team will attest to all of the
above.
                                                                             Attachment B

3.     Unidentified and Unsupported Cost Adjustments
Recommendation: We recommend that the Commission implement procedures to ensure
that it retains source documentation for all journal entries and other adjustments posted to
its accounting records.

Response: The Commission concurs with this finding and has already implemented
procedures to ensure retention of source documentation for all journal entries and other
adjustments posted to accounting records. Unfortunately, there was a period during the
97-99 Biennium when valid payments were charged to a generic account code, and then
the charges were moved to account coding that aligned the payments with the appropriate
grants. The Commission now uses a detailed chart of accounts to track all payments to
their respective grants. Additionally, supporting documentation is attached to journal
vouchers when charges are moved between accounts. The results of the recent CNCS
Standards Review visit will support this statement.

4.     Travel Credits
Recommendation: We recommend that the Commission implement procedures to ensure
that all travel costs are properly offset by allocable credits in its accounting records.
Response: The Commission does not concur with this finding. While the Commission
could not locate documentation that showed receipt of the credits (the majority of the
costs in question relate to the 1994 - 1995 timefiame), it does not mean the credits were
not received. The questioned costs represents less than one percent of the amount spent
on travel by the-Commission during the audit period. Additionally, the state of
Washington has changed vendors for air travel charge accounts. The new vendor
provides detailed statements on an account-by-account basis. The Commission now
receives a monthly statement that reflects all of their activity during the period. The
results of the recent CNCS Standards Review visit will attest to this statement.
                                                                                                       ATTACHMENT C


              TOTAL            TOTAL         TOTAL         WCNCS           WCNCS      WCNCS PERCENTAGE
            CONTRACTS           IAA          BOTH        CONTRACTS          IAA       TOTAL   WCNCS

                                                                              2          12
                                                                              2          13
                                                                              3          20
                                                                              11         30
                                                                              7          23
                                                                              13         37
                                                                              10         27



               SUSAN           SUSAN
              JOHNSEN         JOHNSEN                         IN-KIND
               SALARY         BENEFITS       TOTAL           AMOUNT




FY 2001      $ 81,556.95     $ 17,126.96 $ 98,683.91     $     5,245.01 (calculate at 25% for the 3 months applicable)
                                                         $    87,793.29


               JOHN           JOHN
              TOOHEY         TOOHEY                           IN-KIND
              SALARY         BENEFITS        TOTAL           AMOUNT




FY 2001     $ 59,106.00      $ 12,412.26   $ 71,518.26   $     3,801.17 (calculate at 25% for the 3 months applicable)
                                                         $    69,265.66

Total in-kind contribution                               $ 157.058.95
           March 7,2002


           William C. Bas1
           Executive Director
                                               --
                                                PUGET SOUND
                                                Educational Service District                                RECEIVED
                                                                                                                      ATTACHMENT D



                                                                                                              MAR 1 1 2002
                                                                                                                WCNCS

           Washington Commission for National and Community Service
           PO Box 43113
           Olympia, WA 98504-3133


           Dear Mr. Basl,

           This letter is in response to the Audit Finding Outline included in your letter of February
           28,2002, regarding the Learn & Serve grant, contract #95-34, between the Puget Sound
           ESD and the Commission.

           We have reviewed the finding and our source documents. Our records support a different
           total for salaryhenefit costs from the questioned costs in the finding outline ($44,876.94).
           Our records indicate:
                     Salaries            $ 3 1,859.92
                     Benefits               7,890.98
                     Total                 39,750.90
                     Indirect @ 9%          3,577.58
                     Grand Total         $43,328.48

           During the period audited, salary costs charged to the grant irtcluded $23,376 for Project
           Director and $8,500 for secretarial support. The salary represents 53% of the project
           director's time during the grant.

           The process for allocating payroll costs to various grant programs at the time of the Learn
           & Serve Grant was as follows. Initially, salary costs were charged based on the
           percentage of time budgeted to the various programs. Then, as the year progressed, if the
           percentage of time or effort changed, a journal voucher would be prepared correcting the
           original charges.

           These journal vouchers were prepared based on time and effort certifications signed by
           the employee and their supervisor. This resulted in certifications being completed for the
           majority of the grants as the year progressed.

           However, the percentage of time staff worked on the Learn & Serve grant did not vary
           significantly throughout the year, and therefore a correcting journal voucher was not
           prepared or necessary. The auditors who reviewed our grant may have assumed that
           since there were no time and effort certifications on the Learn and Serve grant that the
           ESD did not have a system jn place. This is simply not the case.




                          400 S.W. 152nd St.     Burien. WA 98166-2209             www.psesd.wednet.edu
                                                                   -
                                                                                                    .
Seattle (206) 439-3636 Tacoma (253) 272-2277; 1-800-664-4549 TTY (206) 439-6966 FAX (206) 439-3961 Terry N Lindquist, Ph.D, Superintendent
Board Members. Holly Barker, Linda Harris, Ken Hoben. John Jacobs. Dawd Okimoto. Barbara Peterson, Ken Seng, Jackie Smith, John Zurfluh
                                                                                                                                             @
The process described above was acceptable to the Washington State Auditor who is the
municipal auditor assigned to audit our agency. These audits were conducted using
generally accepted audit standards and did include reviews of our compliance with
federal guidelines and regulations. The auditor did conduct a "Single Audit" and we did
not receive any findings in the time and effort areas.

In our 1999 audit, the auditor requested that we move to quarterly certifications, which
we did for FY 99-00. In FY 00-01, we improved our process and currently have time and
effort procedures that reflect payroll distributions that are contemporaneous.

We met the criteria and practices required for time and effort in Washington State for
federal grants during the Learn & Serve grant time period. We recognize that the
requirements for time and effort have become more stringent over time. However, we
should not be held to these current higher standards when we were meeting the
requirements for that time period. Auditors sampled records for many grants during the
grant period and reported to the ESD's cognizant audit agency that we were meeting
federal requirements. See audit reports enclosed with this letter.

We request that the questioned costs be reconsidered as eligible due to:
  The ESD did have time and effort procedures in place during the grant period
  The Learn & Serve grant objectives were met
  The ESD performed the services contracted for
  The ESD's internal controls and management controls passed the State audit and met
   federal single audit requirements for the grant period
  The salary and benefit costs were reasonable to manage a grant of this size - $362,000
  The ESD's current procedures exceed current requirements

Thank you for your consideration of our request. If you have any questions, please call
me at 206-439-6924.

Sincerely,


      5
Harvey Erickson, CPA
Assistant Superintendent of Finance

Encl.: Washington State Audit Reports

cc:       Terry Lindquist, Superintendent
          Kirstine Whisler, CPA
                                                                                                                  1-
                                                FINANCIAL~TUS
                                                            REPORT
                                                                      (Short Form)                                                    Page   1   of   1

     . Federal Agency or Organization to which the Report is                 2. Federal Grant Number Assigned by Corporation for
     ubmitted                                                                National Service

     :orporation for National Service                                       ( 94LCSWAO16
     . Recipient Organization(please include name and complete address and zip code)
     Vashington Commission for          National and Community Service
     $1515th Avenue SE, MS: 43134, Olympia, WA 985063134
     . Employer Identification Number             5. Recipient Account Number(oridentifyingnumber)                             7. Basis

 11-6001089                                     (NIA                                                 (   ~    e   NOs   ~    Icash-     Acuual-X-




                                                -
     . Grant Period (See tnst~ctions)                                        1. Period Covered by this report

     rom: (Month, Day, and Year) To: (Month, Day, and Year)                  ?om: (Month, Day, and Year) To: (Month. Day. and Year)
                                                                                                     I

                                                                                          11111995                10131/1997
 0. Transactions:                                                                       I                         II                     111
                                                                               Previously Reported           This Period              Cumulative
     . Total Outlays

8.    Recipient Share of Outlays

see instructions for 1O.bon back)

 . Federal Share of Outlays
see instructions for 10.c on back)              I                 I
I. Total Unliauidated Obliaations                   - -       -




*.Recipient Share of Unliquidated Obligations
.     Federal Share of Unliquidated Obligations

I. Total Federal Share (sum of lines c.1 and c.2)

I.    Total Federal Funds Authorized for this Grant Period

      Unobligated Balance of Federal Funds

 1. Not applicable to AmeriCorps grants. Indirect costs should be included as part of administrative cost

 2. Remarks:

ittach any explanations deemed necessary or information required by federal sponsoring agency in compliance with governing
egislation.
                                   FINAL REPORT AS REQUESTED BY MR SID GARCIA



13. Certification: Icertify to the best of my knowledge and belief that this report is correct and complete and that all outlays
~ n unliquidated
    d            obligations are for the purposes set forth in the award documents.
dame:                                             Title:                      Telephone Number, Area Code and Extensions:

Jaron Butcher                                   l~inancialManaoer             ((360) 902-0406
                                                                                                      n-,,   r   ,C

INQUIRY: PA$-G                       DATL: 10/08/2001: TIME: 11:23:40 ?W



     03/30/2001 03/29/2001
                94LCSB
     08/13/1998 08/12/1998                                                                4809026
                94LCSB
     05/05/1998 05/04/1998                                                                4809028
                94LCSB
     01/29/1998 01/28/1998                                                                4809029
                94LCSB
     10/20/1997 10/17/1997                                                                4809030
                94LCSB
     08/13/1997 08/12/1997                                                                4809031
                94LCSB
     05/02/1997 05/01/1997                                                                4809032
                94LCSB
     01/30/1997 01/29/1997                                                                4809034
                94LCSB
     11/14/1996 11/13/1996                                                                4224458
                94LCSB
     10/17/1996 10/16/1996                                                                4224459
                94LCSB
     08/22/1996 08/21/1996                                                                4224461
                94LCSB
     04/17/1996 04/16/1996                                                                4224462
                94LCSB
     02/16/1996 02/15/1996                                                                4224464
                94LCSB
     11/29/1995 11/28/1995                                                                4224465
                94LCSB
PIN:OT39 ACC:OT39P                                   $17,616,324.85 T o t a l Advances L i s t e d Pay Hits: 14
                                                                                                  Pay Count: 48




................................................
+ * * * * * * * * * * I n q u i r y R e s u l t s Complete * * * * * * * * * * *
................................................
You may now make a n o t h e r s e l e c t i o n f r o m t h e Menu
                                                                                                                 ..---   1   ,c-

PSC 272-E                        MAJOR PROGRAM STATEMENT
WA ST OFFICE OF FINANCIAL MANAGEMENT                                                                   HHS PMS    -
                                                                                  PERIOD COVERED BY THIS REPORT:
PIN:    OT39      PAN:    OT39P     EIN:    1916001089Al                                                  -
                                                                                          04/01/2001 06/30/2001
ACH     REGION:   10      STATE:    WA                                                                            P-TYPE


                                   PART I- ADVANCES TO PAYEE BY MAJOR PROGRAM
ADVANCES TO PAYEE DURING THIS PERIOD:
 *LINE8        PAID DT        *SCHEDL      VOU/RQN            AMOUNT               ADVANCE              BREAKDOWN
  0011         06292001        63684         00000              4,942,391.88
                                                                                    2,918,060.06                  OOASC
                                                                                        261,663.68                OOASF
                                                                                             125.00               OlDSC
                                                                                          79,351.43               OlSCs
                                                                                        -755,448.56               94ASC
                                                                                            -634.40                94SC
                                                                                          21,369.77                95PD
                                                                                             117.56               97EDS
                                                                                    2,284,772.23                  98ARC
                                                                                          24,522.40               99APS
                                                                                         108,492.71               99ASH
  TOTAL                                                       $ 4,942,391.88


                                                 -
                                           PART I1 CASH ACCOUNTABILITY
                                   TOTAL              TOTAL                    UNDRAWN                    THIS
                            AUTHORIZATIONS           ADVANCES            AUTHORIZATIONS               PERIOD DRAWS
      PROGRAM                      AS OF              AS OF                     AS OF                 BY PROGRAM
OOASC
U-00ASCWA047
OOASC


OOASF
U-00ASFWA047
OOASF


OOEDS
U-OOEDSWAO26
OOEDS

OlDSC
U-01DSCWA047
OlDSC

OlSCS
U-01SCSWA047
OlSCS
                          APPENDIX B




CORPORATION RESPONSE TO
  DRAFT AUDIT REPORT
                                                                CORPORATION

                                                                FOR NATIONAL
                                                                A        N   D   -
                                                                COMMUNITY




 To:                    Terry E. Bathen, Acting Inspector Generak

 Through:               William Anderson, Deputy Chief ~inancibl@lfk&                                           1


 From:                                         - ,

                        ~t&dinaru,              Director,                    rps staternation

 Date:                  July 15,2002

 Subj:                  Response to OIG Draft Audit Report 02-09: Incurred Cost Audit of Grants
                        Awarded to the Washington Commission for National and Community Service


 We have reviewed the draft audit report of the grants to the Washington Commission for
 National and Community Service. Due to the limited timeframe for response, we have not
 analyzed documentation provided by the Washington Commission supporting the questioned
 costs nor reviewed the audit work papers. We will respond to all findings and recommendations
 when the audit is issued and we have reviewed the findings in detail.

 Our preliminary review indicates that Washington received over $43,000,000 in grant funds
 during the period covered by the audit. Of this total only $403,735 was questioned (less than
 1%) and an additional $1,203,559 (less than 3%) was identified as unsupported. Most of the
 unsupported costs ($935,749) were unreconciled differences between federal cash transaction
 reports and the accounting system for three 1994 grants. The commission began its
 reconciliation process in 2001 when the Corporation ended the three 1994 grants. When that
 reconciliation process is completed the costs will be resolved.

 In 1998, the Corporation began awarding Education Award and Promise Fellows programs as
 fixed price grants. Because they are fixed price grants, the grantee is not required to follow the
 federal cost principles. It appears from the draft audit that the auditing firm did not recognize
 them as such and may have audited them against requirements that do not apply to fixed price
 grants. We will confirm this during the audit resolution process.




NATIONAL SERVICE: GETTING THINGS DONE                                            1201 New ~ o r Avenue,
                                                                                                 k       N.W. Washington, DC 20525
AmerrCorps   Learn und Serve Atnerrcct   Nc~tionulSenior Service Corps           telephone: (202) 606-1000 website: w ~ % ~ . n u l i ~ n a l ~ e ~ i ~ e . ~ r
